APPENDIX TO THE PETITION FOR A
WRIT OF MANDAMUS
TABLE OF CONTENTS
APPENDIX A - United States Court of Appeals for the Ninth Circuit
la

Order, April 23, 2020
APPENDIX B • United States Court of Appeals for the Ninth Circuit

2a

Order, July 31, 2020
APPENDIX C ■ United States District Court for the District of Nevada
Order Finding University Teachers Absolved of Individual

3a

Liability, October 20, 2017
APPENDIX D - United States District Court for the District of Nevada
Minute Order Recusal of District Judge Boulware, October 17,

23a

2018
APPENDIX E ■ United States District Court for the District of Nevada
Minute Order Assigning District Judge Gordon, October 18, 2018

24a

APPENDIX F ■ United States District Court for the District of Nevada
Order Denying Request for Post-Recusal Status Conference,
25a

February 28, 2019
APPENDIX G - United States District Court for the District of Nevada
Order Granting, in Part, Defendants’ Summary Judgment, and

;>
la

;
V

\

;

'i

L
J

\
O

)

V

i
7

1

i

J
's
{
I

/•

;

;
A

t

\

)
v

V.

O'

J

[
A
f

•■N

\

\

\
l

)

f

\

J

’\

\

\

\

c
J

r

\
/

j

V

J

I

V

\
1

)

r

Sua Sponte, Ordering Supplemental Motions for Summary
31a

Judgment, March 12, 2019
APPENDIX H • United States District Court for the District of Nevada
Order Denying Motions for Recusal/ Disqualification,
Reconsideration, and Change of Venue, July 11, 2019

59a

APPENDIX I - United States District Court for the District of Nevada
Order Denying Motion to Reconsider Recused-Judge’s Orders,
64a

January 27, 2020
APPENDIX J - United States District Court for the District of Nevada
Minute Order Assigning Magistrate Judge Youchah, February

79a

18, 2020
APPENDIX K • United States District Court for the District of Nevada
Order Denying Certification for Interlocutory Appeal, February

80a

20, 2020

APPENDIX L - United States District Court for the District of Nevada
Order Setting Trial and Mandating Pretrial Settlement
81a

Conference, June 4, 2020
APPENDIX M ■ United States District Court for the District of Nevada
Order Setting Pretrial Settlement Conference, July 24, 2020

83a

APPENDIX N ■ Local Rules of Practice, United States District Court
District of Nevada, LR 16-6 - Early Neutral Evaluation
na

88a

\
:
/

'1

J

w

)
/
)

[

•S

/

V.

J

r

)

'

/

L

J

\
!.

l
-'t

/

?

/

(
i

}

!

APPENDIX O • United States District Court for the District of Nevada
Stipulation and Order Rescheduling Pretrial Settlement
93a

Conference, September 3, 2020

C

ilia

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 20-70896

In re: DARREN HEYMAN
Petitioner
v.
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEVADA, LAS VEGAS,
Respondent,
STATE OF NEVADA, ex rel. on behalf of Board of Regents of the Nevada System of
Higher Education on behalf of University of Nevada, Las Vegas! et al.,
Real Parties in Interest.

Filed: April 23, 2020
ORDER
Before: MURGUIA, OWENS, and BENNETT, Circuit Judges.
Petitioner has not demonstrated that this case warrants the intervention of
the court by means of the extraordinary remedy of mandamus. See Bauman v. U.S.
Dist. Court, 557 F.2d 650 (9th Cir. 1977). Accordingly, the petition is denied.
DENIED.

la

i
V

)

J

0
[

\

\

1

\
\

v

J
.J

c

•n.

i-

\

\
-j

\

V

j

r

:

\

I

i

\

v.

/

;

\
;

/
f

i /

l\

j

i

u

1

;
J
v

/

)

<

f

v

\

V

N

%

7

i

\
j

■>

(

i

(

APPENDIX B
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 20-70896

In re: DARREN HEYMAN,
Petitioner
v.
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEVADA, LAS VEGAS
Respondent,
STATE OF NEVADA, ex rel. on behalf of Board of Regents of the Nevada System of
Higher Education on behalf of University of Nevada, Las Vegas; et al.,
Real Parties in Interest.

Filed: July 31, 2020
ORDER
Before: MURGUIA, OWENS, and BENNETT, Circuit Judges.
.y

Petitioner’s motion for reconsideration is denied and the motion for
reconsideration en banc is denied on behalf of the court (Docket Entry No. 5). See
9th Cir. R. 27-10; 9th Cir. Gen. Ord. 6.11.
No further filings will be entertained in this closed case.
\

2a

V

APPENDIX C
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEVADA
Civ. No. 2:i5-cv-01228-RFB-GWF
DARREN HEYMAN, Plaintiff
v.
THE STATE OF NEVADA EX REL. BOARD OF REGENTS OF THE NEVADA
SYSTEM OF HIGHER EDUCATION ON BEHALF OF THE UNIVERSITY OF
NEVADA, LAS VEGAS; NEAL SMATRESK; DONALD SNYDER; STOWE

shoemaker; rhonda Montgomery; curtis love; sarah tanford;
PHILLIP BURNS; KRISTIN MALEK; LISA MOLL-CAIN; DEBRA PIERUSCHKA;
ELSA SIDHU AND DOES I- X INCLUSIVE, Defendants

Filed: October 20, 2017
ORDER

I.

INTRODUCTION

Before the Court are two Motions to Dismiss. The first was filed by Defendant
Neal Smatresk (“Smatresk”) (ECF No. 45), and the second was jointly filed by all
Defendants in the case (ECF No. 47). After reviewing the parties’ submissions, for
the reasons discussed below, the Court GRANTS both Motions to Dismiss.
II.

BACKGROUND

Plaintiff Darren Heyman (“Plaintiff’) filed his original Complaint in the Eighth
Judicial District Court of Clark County on May 11, 2015, and filed an Amended
Complaint in the same court on June 10, 2015. (ECF No. l). Plaintiffs Amended
3a

Complaint listed fifteen causes of action, including fourteen state law claims and
one Title IX claim. The Defendants named in the state court action were the State
of Nevada ex rel. Board of Regents of the Nevada System of Higher Education on
behalf of the University of Nevada, Las Vegas (“UNLV”), Neal Smatresk
(“Smatresk”), Donald Snyder (“Snyder”), Stowe Shoemaker (“Shoemaker”), Rhonda
Montgomery (“Montgomery”), Curtis Love (“Love”), Sarah Tanford (“Tanford”)
Phillip Burns (“Burns”), Kristen Malek (“Malek”), and Lisa Moll-Cain (“Moll-Cain”)
(collectively, “Removing Defendants”). On June 29, 2015, the Removing Defendants
removed the case to this Court, arguing that Plaintiffs Amended Complaint added a
federal law claim. (ECF No. l). Removing Defendants filed a First Motion to
Dismiss on July 13 [s/d, 2015. (ECF No. 9). Plaintiff filed a First Motion for Leave
to File Amended Complaint on August 10, 2015. (ECF No. 18). Removing
Defendants filed a Response on August 18, 2015. (ECF No. 20). Plaintiff filed a
Response to the First Motion to Dismiss on August 24, 2015. (ECF No. 21). The next
day, Plaintiff filed a Reply to the Response to the First Motion for Leave to File
Amended Complaint. (ECF No. 22). Removing Defendants filed a Reply to Plaintiffs
Response to the First Motion to Dismiss on September 3, 2015. (ECF No. 24). On
March 31, 2016, the Court entered a Minute Order granting Plaintiffs Motion for
Leave to File Amended Complaint, and denying Removing Defendants’ Motion to
j

Dismiss without prejudice.

4a

Plaintiff filed the operative Amended Complaint on April 13, 2016. (ECF No.
28).1 In addition to the fifteen causes of action alleged in the First Amended
Complaint, Plaintiff pleads sixteen other causes of action in the SAC. The SAC also
added two new defendants, Debra Pieruschka (“Pieruschka”) and Elda Sidhu
(“Sidhu”). Defendant Smatresk filed a Motion to Dismiss on May 13, 2016. (ECF No.
45). All Defendants, including Pieruschka and Sidhu, also filed a Joint Motion to
Dismiss on May 13, 2016. (ECF No. 47). On May 30, 2016, Plaintiff filed Responses
to the Motions to Dismiss. (ECF Nos. 99, 100). On June 9, 2016, Defendants filed
Replies to the Responses. (ECF Nos. 109, 110).
The causes of action Plaintiff alleges are:
•

l) Defamation, against UNLV, Montgomery, Love, Tanford, Burns, Malek,
and Moll-Cain;

•

2) Invasion of Privacy — False Light, against UNLV, Montgomery, Love,
Tanford, Malek, and Moll-Cain;

•

3) Civil Conspiracy, against UNLV, Montgomery, Love, Tanford, Burns,
Malek, and Moll-Cain;

•

4) Concerts of action, against UNLV, Montgomery, Love, Tanford, Burns,
Malek, and Moll-Cain,'

•

5)

Intentional

Infliction

of Emotional

Distress,

against

UNLV,

Montgomery, Love, Tanford, Burns, Malek, and Moll-Cain,'
1 In the Motion papers, the parties agree that this Amended Complaint should be referred to as the
“Second Amended Complaint,” as Plaintiff has filed a First Amended Complaint in state court.
Therefore, the Court will refer to the document as the “Second Amended Complaint” or “SAC”.

5a

J

/

1

>

;

i

»

/
/
i

i

r

!.

■v

/

/

<
I

!

\

/■

i

/•
;
L*

/

:

'
/
*

r

r

•

6) Breach of Contract, against UNLV, Smatresk, Snyder, Montgomery,
Love, Tanford, Burns, Malek, and Moll-Cairn

•

7) Contractual Breach of Implied Covenant of Good Faith and Fair
Deahng, against UNLV, Smatresk, Snyder, Shoemaker, Montgomery,
Love, Tanford, Burns, Malek, and Moll-Cain!

•

8) Tortious Breach of Implied Covenant of Good Faith and Fair Dealing,
against UNLV, Smatresk, Snyder, Shoemaker, Montgomery, Love,
Tanford, and Burns!

•

9) Constructive Fraud, against UNLV, Montgomery, Love, Tanford.
Burns, Malek, and Moll-Cain!

•

10) Deceit or Misrepresentation, against UNLV, Snyder, Burns, and
Shoemaker!

•

11) Detrimental Reliance, against UNLV, Snyder, Shoemaker, and Burns!

•

12) Fraud in the Inducement, against UNLV, Smatresk, Snyder,
Shoemaker, and Burns!

•

13) Fraud / Intentional Misrepresentation, against UNLV, Montgomery,
Love, Tanford, Burns, Malek, and Moll-Cain!

•

14) Sexual Harassment in violation of Nevada Fair Employment Practices
Act, against UNLV, Montgomery, Love, Tanford, Burns, Malek, and MollCain!

•

15) Sexual Harassment in violation of Title IX, against UNLV;

6a

i

16) Negligence, against UNLV, Smetrask [sic], Snyder, Shoemaker,
Montgomery, Love, Tanford, Burns, Malek, and Moll-Cairn .
17) Negligent Hiring, Training, Supervision, and Retention, against
UNLV, Smatresk, Snyder, and Shoemaker!
18) Malicious Prosecution, against UNLV, Debra Pieruschk [sic] and
Sidhu,',
19) Defamation, against UNLV, Pieruschka, and Sidhu!
20) Invasion of Privacy — False Light, against UNLV, Pieruschka, and
Sidhu!
21)

Civil Conspiracy,

against UNLV,

Pieruschka,

Sidhu,

Snyder,

Shoemaker, Montgomery, Love, Tanford, Burns, Malek, and Moll-Cain!
22) Concert of action, against UNLV, Pieruschka, Sidhu, Snyder,
Shoemaker, Montgomery, Love, Tanford, Burns, Malek, and Moll-Cain!
23)

Intentional Infliction of Emotional

Distress,

against UNLV,

Pieruschka, and Sidhu!
V

*

24) Neglience [sic], against UNLV, Pieruschka, and Sidhu!
25) Contractual Breach of the Implied Covenant of Good Faith and Fair
Dealing, against UNLV, Pieruschka, and Sidhu!
26) Intentional Infliction of Emotional Distress, against UNLV!

•

27) Negligence, against UNLV!

•

28) Breach of Contract, against UNLV!

7a

•

29) Contractual Breach of the Implied Covenant of Good Faith and Fair
Dealing, against UNLV;

•

30) Tortious Breach of the Implied Covenant of Good Faith and Fair
Dealing, against UNLV; and

•

31)

Civil Conspiracy,

against UNLV, Pieruschka,

Sidhu,

Snyder,

Shoemaker, Montgomery, Love, Tanford, and Burns.
Claims 1 through 17 involve an incident in which Plaintiff alleges that several
named Defendants created and furthered a rumor that he would cheat on a
Qualifying Exam, and other Defendants failed to properly investigate the rumor. Of
those claims, Claims 1 through 15 were previously asserted in the First Amended
Complaint. Claims 18 through 25 involve a Bar Complaint that Defendant
Pieruschka filed against Plaintiff, which Plaintiff claims was done in retaliation for
his filing the instant suit. Claims 26 through 31 are allegedly "subsequent actions"
taken by Defendant UNLV following the incident asserted in Claims 1 through 17.
III. LEGAL STANDARD
An initial pleading must contain "a short and plain statement of the claim
showing that the pleader is entitled to relief." Fed. R. Civ. P. 8(a). The court may
dismiss a complaint for failing to state a claim upon which relief can be granted.
Fed. R. Civ. P. 12(b)(6). In ruling on a motion to dismiss, "[a]ll well-pleaded
allegations of material fact in the complaint are accepted as true and are construed
in the light most favorable to the non-moving party." Faulkner v. APT Sec. Servs.
Inc.. 706 F.3d 1017, 1019 (9th Cir. 2013) (citations omitted). In addition, documents
8a

filed by a plaintiff who is proceeding without counsel (as is the case here) must be
liberally construed, and a pro se complaint must be "held to less stringent standards
than formal pleadings drafted by lawyers." Erickson v. Pardus. 551 U.S. 89 (2007)
(quoting Estelle v. Gamble. 429 U.S. 97, 106 (1976)) (citations and internal
quotation marks omitted); see also Butler v. Long. 752 F.3d 1177, 1180 (9th Cir.
2014).
To survive a motion to dismiss, a complaint need not contain "detailed factual
allegations," but merely asserting '"labels and conclusions' or 'a formulaic recitation
of the elements of a cause of action'" is not sufficient. Ashcroft v. Iqbal. 556 U.S.
662, 678 (2009) (quoting Bell Atlantic Corp . v. Twomblv. 550 U.S. 544, 555 (2007)).
In other words, a claim will not be dismissed if it contains "sufficient factual matter,
accepted as true, to state a claim to relief that is plausible on its face," meaning that
the court can reasonably infer "that the defendant is liable for the misconduct
alleged." Iqbal. 556 U.S. at 678 (citation and quotation marks omitted). In
elaborating on the pleading standard described in Twomblv and Iqbal, the Ninth
Circuit has held that for a complaint to survive dismissal, the plaintiff must allege
non-conclusory facts that, together with reasonable inferences from those facts, are
"plausibly suggestive of a claim entitling the plaintiff to relief." Moss v. U.S. Secret
Service. 572 F.3d 962, 969 (9th Cir. 2009).
"As a general rule, a district court may not consider any material beyond the
pleadings in ruling on a Rule 12(b)(6) motion." Lee v. City of Los Angeles. 250 F.3d
668, 688 (9th Cir. 2001) (citation and internal quotation marks omitted). In deciding
9a

a motion to dismiss under Rule 12(b)(6), the district court's review is limited to the
complaint itself! the court does not decide at this stage whether the plaintiff will
ultimately prevail on her claims, but rather whether he or she may offer evidence to
support those claims. Cervantes v. City of San Diego, 5 F.3d 1273, 1274 (9th Cir.
1993) (citing Scheuer v. Rhodes. 416 U.S. 232, 236 (1974)).
If the district court relies on materials outside the pleadings submitted by
either party to the motion to dismiss, the motion must be treated as a Rule 56
motion for summary judgment. Anderson v. Angelone, 86 F.3d 932, 934 (9th Cir.
1996). However, two exceptions to this rule exist. First, the court may consider
extrinsic material "properly submitted as part of the complaint," meaning
documents either attached to the complaint or upon which the plaintiffs complaint
necessarily relies and for which authenticity is not in question. Lee, 250 F.3d at 688
citation omitted). Second, the court "may take judicial notice of matters of public
record." Id. (citation and internal quotation marks omitted).
IV. DISCUSSION
Because Defendants assert claims of immunity in both Motions to Dismiss,
those grounds will be addressed first.
A. Discretionary Immunity
Defendant Smatresk argues that all claims against him should be dismissed
because Smatresk, as an officer of UNLV during the time of the alleged events, is
immune from suit under the doctrine of discretionary immunity, pursuant to

10a

Nevada Revised Statute ("NRS") 41.032.2 NRS 41.032 provides^ "Except as provided
in NRS 278.0233 no action may be brought under NRS 41.031 or against an
immune contractor or an officer or employee of the State or any of its agencies or
political subdivisions which is . . . (2) Based upon the exercise or performance or the
failure to exercise or perform a discretionary function or duty on the part of the
State or any of its agencies or political subdivisions or of any officer, employee or
immune contractor of any of these, whether or not the discretion involved is
abused." The Nevada Supreme Court has held that "[p]ersonal deliberation,
decision and judgment are requirements of a discretionary act Such a decision
should not be second guessed by a court with the benefit of hindsight." Parker v.
Mineral Ctv.. 729 P.2d 491, 493 (Nev. 1986) (citations omitted). To determine
whether an action of a state officer falls within the scope of NRS Section 41.032(2),
a court must consider whether the action "(1) involve [s] an element of individual
judgment or choice and (2) [is] based on considerations of social, economic, or
political policy." Martinez v. Maruszczak. 168 P.3d 720, 729 (Nev. 2007).
Plaintiff contends that Smatresk's role as President was operational or
ministerial, based upon UNLV's Code of Conduct, and therefore discretionary
immunity should not apply. Because claims 6 through 8 allege contract-related
causes of action, the Court will examine the language of the Code of Conduct,
attached to Smatresk's Reply Brief as Exhibit 1. Provisions related to the role of the
President include:
2 The claims asserted against Defendant Smatresk are Claims 6, 7, 8, 12, 16, and 17,

11a

/

• "The Nevada System of Higher Education (NSHE) Board of Regents reserves
to the President of the University the authority and responsibility for
matters of student discipline. This authority is delegated by the President
to the Vice President for Student Affairs or his/her designee for the
processing of conduct matters, hearings and appeals." (ECF No. 109-1 at 2).
• "The President of the University has the responsibility for student conduct
and discipline and shall exercise this responsibility through established
procedures as prescribed in the Code, which is authorized by Title 2,
Chapter 6 of the NSHE Code. The President of UNLV delegates such
authority to the Vice President for Student Affairs who, in turn, appoints
the Office of Student Conduct to administer the Code (ECF No. 109-1 at 10).
• "Depending upon the severity of the violation, and whether a repeat or
multiple violations are involved, sanctions may be imposed by [various
other administrators] or the President of the University in any order or
combination." (ECF No. 109-1 at 19).
Based upon the aforementioned provisions, and review of the Code of Conduct
as a whole, the Court finds that Smatresk's role in enforcing the Code of Conduct
was discretionary. Only when the delegated officers — namely, the Vice President of
Student Affairs and members of the Office of Student Conduct — exercised their
discretion to refer a case to the President for sanctions was Smatresk in the position
to impose sanctions based upon his "personal deliberation, decision and judgment."

12a

Parker, 729 P.2d at 493. In circumstances in which cases were not referred to the
President, no exercise of discretion is necessary.
The Court finds that Smatresk' s characterization of University of Nevada v.
Stacey is more persuasive than Plaintiffs characterization of the case. 997 P.2d 812
(Nev. 2000). In Stacey, the Nevada Supreme Court held that the University of
Nevada, Reno ("UNR")' s decision not to award tenure to a professor was
discretionary, despite plaintiff s arguments that the terms of his teaching
agreement entitled him to tenure. 997 P.2d at 814. The court additionally examined
other UNR policy documents,

including several sets of bylaws

and an

administrative manual. Id. The Court agrees with Smatresk that the instant case is
similar to Stacey, in which the court stated: "[wle see nothing ministerial ... in a
university's subjective decision to grant one of its professor's lifetime employment."
Id. at 816. This Court sees nothing ministerial in a university President's subjective
decisions not to impose sanctions upon students or faculty, particular when neither
sanctions nor further investigation has been recommended to him by the Vice
President of Student Affairs or the Office of Student Conduct.
Further, the Court finds that the two-part Martinez test is satisfied: (l) the
President may exercise his judgment to impose sanctions! and (2) that judgment is
based upon considerations of the social policy underlying the Code of Conduct —
fostering an ethical university environment. In Martinez, the Nevada Supreme
Court held that a university-employed physician could not assert discretionary
immunity, finding that "while a physician's diagnostic and treatment decisions
13a

involve judgment and choice, thus satisfying the test's first criterion, those decisions
generally do not include policy considerations, as required by the test's second
criterion." 168 P.3d at 729. A physician treating an individual, however, does not
occupy the same role as a university president. As President, Smatresk's role in
enforcing the Code of Context involved considerations of policy, and balancing of the
overall disciplinary, educational, community, and health priorities of UNLV. For
example, certain sanctions are imposed more harshly if a violation of the Code of
Conduct is motivated by race, gender, age, disability, or a number of other personal
characteristics. (ECF No. 109-1 at 19).
Therefore, the Court grants Smatresk's Motion to Dismiss claims 6, 7, 8, 12,
16, and 17 on the basis of discretionary immunity. As all claims against Smatresk
can be dismissed on these grounds, the Court will not analyze in depth the other
arguments made in Smatresk's Motion to Dismiss. With regard to the contractual
claims, the Court does not find that Plaintiff was in a contract with the individually
named parties, and agrees with Smatresk that there existed no binding agreement
Plaintiff specifically to investigate alleged Code of Conduct violations in a particular
fashion. With regard to the negligence and negligent hiring, training, supervision,
and retention claims, the Court also agrees that the facts as pleaded do not
specifically allege a breach of duty with regard to Defendant Smatresk.
B. Absolute Immunity
Defendants named in Claims 18 through 25 argue that the claims should be
dismissed as grievants who file a complaint with the Nevada Bar are granted
14a

absolute immunity from liability. Nevada Supreme Court Rule ("NSCR") 106(l)
provides: "All participants in the discipline process, including grievants, bar counsel
staff, members of disciplinary panels, diversion and mentoring participants, and
witnesses, shall be absolutely immune from civil liability. No action may be
predicated upon the filing of a disciplinary complaint or grievance or any action
taken in connection with such a filing by any of the participants. Except that any
disclosures made pursuant to Rule 121(16) shall not be immune under this rule."
NSCR 121(16) provides: "These rules shall not prohibit any complainant, the
accused attorney, or any witnesses from discussing publicly the existence of the
proceedings under these rules or the underlying facts related thereto. However,
disclosures made under this subsection, in whatever form or by whatever means,
outside the disciplinary process shall not be covered by the civil immunity afforded
in Rule 106(l)."
.Plaintiff alleges that on May 20, 2015, Defendant Pieruschka filed a complaint
with the State Bar of Nevada, claiming that Plaintiff was practicing Nevada law
without a license. Plaintiff also alleges that on June 10, 2015, Brett Nicholls
("Nicholls"), a friend of Plaintiffs, went to UNLV to serve Pieruschka, on behalf of
her clients, with copies of the First Amended Complaint. .Plaintiff claims that
Pieruschka told Nicholls that she was planning on filing a complaint with the
Nevada Bar. Defendants contend that, as a matter of public policy, complainants to
the Nevada Bar should be afforded absolute liability from civil actions.

15a

Plaintiff counters that absolute liability should not apply to Defendants, as the
Bar complaint was filed falsely and in bad faith. Plaintiff claims that he never
practiced Nevada law in Nevada, and that the Bar complaint was maliciously filed,
since Defendants knew that he was applying to the Nevada Bar and that his moral
character would be on review. Plaintiff admits, however, that he received
notification from the State Bar of Nevada indicating that no formal disciplinary file
was open and the matter was closed. (ECF No. 28 at 93). Plaintiff also contends that
Defendant Pieruschka told Nicholls, a disinterested third party, about a plan to file
a complaint, and therefore immunity cannot be extended pursuant to NSCR 121
(16).
The Court finds that absolute immunity applies in this case. Plaintiff alleges
that Pieruschka told Nicholls that "since [Mr. Nicholls] had picked up the [service]
documents from [Plaintiff] at his law office in Town Square, she was going to file a
Complaint against Darren with the State of Nevada Bar . (ECF No. 28 at 89).
Plaintiff does not allege that Pieruschka or any other Defendant spoke to Nicholls
about a complaint already filed with the Nevada Bar. The plain language of NSCR
121 (16) prevents absolute immunity only when the "existence of proceedings" or
underlying facts related to an existing proceeding is publicized. Pieruschka's alleged
plans to file a complaint against Plaintiff, spoken to Nicholls, did not indicate that a
proceeding had in fact been initiated. Therefore, the Court finds that NSCR 106
affords Defendants immunity from civil liability based on the filing of the Bar
complaint.
16a

The Court has also reviewed the elements of the causes of action asserted in
Claims 18 through 25, and agrees with Defendants that Plaintiff fails to state a
claim for all such causes action. Specifically, Plaintiff fails to allege actual damage
for these claims, as the State Bar of Nevada has not entered formal disciplinary
proceedings against him. With regard to the defamation claim, the Court declines to
find defamation per se, as the element of fault has not been sufficiently pleaded.
C.

State Law Employment Discrimination Claim

The Nevada Fair Employment Practices Act, codified in Nevada Revised
Statute 613.330, prohibits unlawful employment practices based on a person's sex
or gender identity or expression, along with other protected characteristics. Plaintiff
alleges that the individual former students, professors, and program director named
as Defendants violated the statute by taking retaliatory and adverse action against
Plaintiff when he was allegedly falsely accused of planning to cheat on the
Qualifying Exams. Defendants argue that Plaintiff s claim under the Nevada Fair
Employment Practices Act fails because Plaintiff has not exhausted administrative
remedies. Defendants also argue that they were not "employers" within the
meaning of the statute, and did not "personally" employ Plaintiff. Defendants also
argue that the claim is time barred.
Plaintiff counters that administrative remedies under the statute are optional,
not mandatory. He alternatively argues that he has filed an intake with the Equal
Employment Opportunity Commission ("EEOC") and received a Notice of right to
Sue. Plaintiff additionally argues that he timely reported Defendants' retaliatory
17a

actions to the EEOC on October 7, 2015, within 180 days of Plaintiffs awareness of
the first and second retaliatory actions. He also alleges that he was made aware of
UNLV's unilateral expulsion in March 2016, and has filed another EEOC
complaint.
The Court finds that Plaintiff does not sufficiently allege facts to support a
finding that he was an employee at the time of the discriminatory acts. A charge
under the Nevada Fair Employment Practices Act necessarily requires, as a matter
of law, a court to find an existing employment relationship between a plaintiff and
defendant. Here, Plaintiffs allegations all occurred in the context of him being a
student. He argues that, at the time the alleged events took place, he did not believe
/

he was an employee, and Defendants either did not want him to know he had rights
as an employee, or alternatively that Defendants also did not believe he was an
employee. Plaintiff claims in his Response that he learned that he was an employee
since the action was filed; however, the Court finds this claim an unsupported legal
conclusion, and therefore dismisses Claim 14. The Court declines to analyze
Defendant's statute of limitations argument, but does acknowledge that the
argument potentially provides further reason to dismiss the claim.
D.

Title IX Statute of Limitation

Title IX of the Education Amendments of 1972 ("Title IX") prohibits any
education program or activity receiving Federal financial' assistance from
discriminating on the basis of sex. 20 U.S.C. § 1681. The Supreme Court has held
that Title IX contemplates a private right of action for claims of retaliation. Jackson
18a

v. Birmingham Bd. of Educ., 544 U.S. 167, 171 (2005). The Court has also held that
Title IX's private right of action encompasses sex discrimination from teacher to
student, and harassment from teacher to student or student to student, when an
institution acts with deliberate indifference to harassment complaints. Jackson. 544
U.S. at 173-74. In order to establish a claim for deliberate indifference, a plaintiff
must show that the institution failed to respond to known acts of harassment "so
severe, pervasive, and objectively offensive that [such harassment] effectively bars
the victim's access to an educational opportunity or benefit." Davis v. Monroe Ctv.
Bd. Of Educ.. 526 U.S. 629, 633 (1999). Even if a plaintiff alleging Title IX
discrimination cannot show that an institution was deliberately indifferent to one
student' s sexual harassment of another, plaintiff may still have a claim for
retaliation.
Here, even construing the facts in the light most favorable to Plaintiff, neither
retaliation nor deliberate indifference is sufficiently alleged. Plaintiff claims that
Defendant Malek made an unwanted sexual advance toward Plaintiff while the two
were graduate students at UNLV, prior to she and other Defendants spreading the
rumor that Plaintiff would cheat on the Qualifying Exam. However, Plaintiff
further alleges that he "thought nothing of Ms. Malek's unwanted sexual advances"
at the time he discussed the cheating accusations with Defendant Burns. (ECF No.
28 at 71). Plaintiff does state that he told Burns that he believed the accusations
were being perpetuated on the basis of Plaintiffs sex and/or gender — yet, he does
not allege any facts that support a finding of Title IX retaliation following his
19a

i

discussion with Burns. Plaintiff took and passed the Qualifying Exam, and the
results were not challenged by any of the Defendants. Plaintiff has not shown that
he was retaliated against for complaining about Malek's conduct, which he appears
to have first done in this action, or for discussing with Burns his belief that the
cheating accusations were spread with a discriminatory purpose.
With regard to Malek's unwanted conduct, the Court does not find that any
Defendants acted with deliberate indifference. Again, the facts of the Second
Amended Complaint do not establish that UNLV or its officials failed to act or
otherwise subjected Plaintiff to further harassment after he made his initial
complaint with Burns. Although Plaintiff alleges that Burns did not disclose that he
was UNLV's Title IX officer, or advise Plaintiff of any rights he had pursuant to
Title IX, the Court finds that such disclosures are not elements of the deliberate
indifference test.
Further, based on the facts alleged, it is clear that the UNLV Defendants did
not' act with deliberate indifference. Plaintiff alleges that, on May 13, 2013, four
days prior to the Qualifying Exam, he met with the Dean of the Ph.D. program at
the Hotel College and was informed about the existence of the cheating accusations.
(ECF No. 28 at 15). Plaintiff then emailed Defendant Snyder, then UNLV
President, who responded the following day that the accusation would be
investigated. (ECF No. 28 at 21). On May 16, 2013, the day before the scheduled
Qualifying Exam, Snyder informed Plaintiff that the accusation was a "student
based rumor" and was "clearly not the thinking or belief of the College or the
20a

/

University." (ECF No. 28 at 21). Defendant Love was removed as a proctor for the
Qualifying Exam, at Plaintiffs request. (ECF No. 28 at 22). Plaintiff was given an
extension to take the Qualifying Exam, on which he received a higher than passing
score. (ECF No. 28 at 22). Snyder emailed Plaintiff to inform him that the
accusations would be investigated pursuant to UNLV policies and procedures, and
that the matter was referred to the Office of Student Conduct. (ECF No. 28 at 23).
On May 31, 2013, Plaintiff met with Burns, then Director of the Office of Student
Conduct, and Burns told Plaintiff that an investigation would begin immediately.
(ECF No. 28 at 24). Plaintiff and Burns exchanged emails about the investigation
over the course of Summer 2013. (ECF No. 28 at 24). In September 2013, Burns met
with Plaintiff and informed Plaintiff that the investigation was completed. (ECF
No. 28 at 25).
In fight of the above facts, the Court finds that Claim 15 must be dismissed for
failure to state a claim. As no cause of action has been adequately pleaded, the
Court declines to analyze Defendants' argument that the claim is time-barred.
E. Punitive Damages
Plaintiff seeks punitive damages specifically for the sex-based discrimination
he alleges, and generally in his prayer for relief. Defendants argue that, under NRS
41.035, punitive damages may not be awarded against government officers in tort
actions. Defendants contend that all individually named Defendants were
employees of UNLV during the time of the alleged incidents. Plaintiff counters that
NRS 41.035 does not apply to actions government officers take outside the scope of
21a

their employment, and argues that the "purposeful dissemination of lies" is not
within the scope of public duties. He also contends that the punitive damages bar of
NRS 41.035 does not apply to any Defendants sued in their individual capacity.
The Court does not agree with Plaintiff that he alleges facts pertaining to
actions taken outside the scope of Defendants' employment. His claims related to
the cheating accusations and the filing of the Bar complaint appear to involve
actions performed in the context of Defendants' employment. The Court does not
interpret NRS 41.035 to permit requests of punitive damages when Nevada officers
or employees are sued in their individual capacity acting within the scope of their
employment. Because all tort actions alleged involve actions or omissions performed
within the scope of Defendants' public duties or employment, the Court finds NRS
41.035 prohibits Plaintiff from requesting punitive damages on the surviving tort
claims.
IV. CONCLUSION
/"\

IT IS THEREFORE ORDERED that Defendant Smatresk's Motion to Dismiss
(ECF No. 45) and Defendants' Joint Motion to Dismiss (ECF No. 47) are
GRANTED. Claims 6, 7, 8, 12, 16, and 17 are dismissed with prejudice as to
Defendant Smatresk. Claims 14, 15, 18, 19, 20, 21, 22, 23, 24, and 25 are dismissed
with prejudice as to all Defendants.
DATED this 19th day of October, 2017.
/s/ RICHARD F. BOULWARE. II.
RICHARD F. BOULWARE, II
UNITED STATES DISTRICT JUDGE
22a

APPENDIX D
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEVADA
Civ. No. 2:15-cv-01228-RFB-GWF
DARREN HEYMAN, Plaintiff
v.
THE STATE OF NEVADA EX REL. BOARD OF REGENTS OF THE NEVADA
SYSTEM OF HIGHER EDUCATION ON BEHALF OF THE UNIVERSITY OF
NEVADA, LAS VEGAS; et al., Defendants

Filed: October 17, 2018
ORDER

MINUTE ORDER IN CHAMBERS of the Honorable Richard F. Boulware, II on
10/17/2018.

With good cause appearing, the Honorable Richard F. Boulware, II recuses himself
v
in this action. IT IS ORDERED that this action is referred to the Clerk for random
reassignment of this case for all further proceedings. (Copies have been distributed
pursuant to the NEF - CVL)

23a

/
/
/
/

\

'\
i

)
r.

(
\
/
;
V

/

)
J
I
.7

/
J

\

I

r

;

r
t

s

APPENDIX E
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEVADA
Civ. No. 2:15-cv-01228-RFB-GWF
DARREN HEYMAN, Plaintiff
v.
THE STATE OF NEVADA EX REL. BOARD OF REGENTS OF THE NEVADA
SYSTEM OF HIGHER EDUCATION ON BEHALF OF THE UNIVERSITY OF
NEVADA, LAS VEGAS; et al„ Defendants

Filed: October 18, 2018
CLERK’S NOTICE

CLERK'S NOTICE that this case is randomly reassigned to Judge Andrew P.
Gordon for all further proceedings. All further documents must bear the correct case
number 2:i5-cv01228-APG-GWF. (no image attached) (EDS).

24a

APPENDIX F
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEVADA
Civ. No. 2:15-cv-01228-RFB-GWF
DARREN HEYMAN, Plaintiff
v.
THE STATE OF NEVADA EX REL. BOARD OF REGENTS OF THE NEVADA
SYSTEM OF HIGHER EDUCATION ON BEHALF OF THE UNIVERSITY OF
NEVADA, LAS VEGAS; et al„ Defendants

Filed; February 28, 2019
ORDER

Plaintiff Darren Heyman objects to Magistrate Judge Foley’s various orders
granting defendant Rhonda Montgomery’s motions for contempt and imposing
attorney’s fees on Heyman. Heyman also moves for leave to file a reply to
Montgomery’s response to one of these objections and moves for a status conference
to discuss these objections and Judge Boulware’s recusal.
The parties are familiar with the factual and procedural background of this
case, so I do not summarize it here. For the reasons outlined below, I deny
Heyman’s objections, grant his motion for leave, and deny his motion for a status
conference.
I. BACKGROUND OF ORDERS
25a

On November 29, 2017, Montgomery moved to compel Heyman to provide a
HIPAA authorization form in order to obtain medical records. ECF No. 243. On
February 9, 2018, Magistrate Judge Foley granted that motion and ordered
Heyman to provide authorization forms that would allow the defendants to access
the records of mental health treatment he had received since 2013. ECF No. 309.
Two months later, Montgomery moved for contempt sanctions against
Heyman for failure to comply with that order, arguing that Heyman provided
authorization only for mental health records specifically relating to the alleged
accusations of cheating at issue in this case. ECF No. 333. On June 18, Judge Foley
granted the motion, finding that Heyman “failed to comply with the Court’s order
instructing him to provide a HIPAA authorization form.” ECF No. 362 at 3. Judge
Foley ordered Montgomery to file a memorandum establishing appropriate
attorney’s fees and re-ordered Heyman to provide full HIPAA authorization. Id.
Montgomery filed her memorandum (ECF No. 373), and on August 9, Judge Foley
. awarded her $1,408.00 in attorney’s fees. ECF No. 396.
On July 31, 2018, Montgomery again moved for contempt sanctions against
Heyman for failure to comply with Judge Foley’s June 18 order, arguing that
Heyman inappropriately limited his HIPAA authorization to only Montgomery’s
counsel and law firm. ECF No. 392. On October 18, Judge Foley granted that
motion in part,1 finding that Heyman “once again has failed to follow an order of

1 In addition to sanctions, Montgomery moved to strike Heyman’s damages for intentional
infliction of emotional distress. ECF No. 392. Judge Foley granted the sanctions but denied
Montgomery’s motion to strike. ECF No. 405.

26a

this Court despite warnings of the consequences of doing so.” ECF No. 405 at 3.
Judge Foley ordered Montgomery to file another memorandum establishing
additional attorney’s fees and re-ordered Heyman to provide a full HIPAA
authorization. Id. Montgomery filed another memorandum (ECF No. 410) and on
November 11, Judge Foley awarded her an additional $1,148.00 in attorney’s fees.
ECF No. 417.
II. HEYMAFTS OBJECTIONS
Heyman objects to all four sanction orders. With regard to the June 18 order,
he argues he showed a willingness to work with Montgomery, is acting pro se, had
never dealt with HIPAA releases before, genuinely thought that he provided
Montgomery with a release sufficient to meet the requirements of the June 6 order,
and was therefore not acting in bad faith. He also argues Judge Foley repeatedly
ignored bad faith on Montgomery’s part and therefore abused his discretion in
imposing sanctions against Heyman. He further contends there is no legal basis for
requiring him to provide HIPAA authorization. ECF No. 376. Montgomery responds
that Heyman had not been cooperative and that Judge Foley was within his
discretion to impose discovery sanctions. ECF No. 383.
Heyman objects to the August 8 order imposing $1,408.00 in attorney’s fees
by arguing that the June 18 order explicitly limited Montgomery to fees related to
“preparing and filing her motion for contempt,” but that 7.6 of the 8.8 hours
Montgomery itemized were spent on work done after that motion had been filed.2

2 Examples of post-filing work include research for and drafting a reply in support of the motion

27a

ECF Nos. 399 and 340. He also argues that the fees should not have been imposed
because Montgomery’s memo did not include confirmation that it was “reviewed and
edited” by the moving attorney in accordance with Local Rule 54-14(c), because
Judge Foley did not adequately consider Heyman’s equitable considerations in
accordance with the language of the June 18 order, and because a defendant who is
not paying her own legal fees is not entitled to recover attorney’s fees. Id,
Montgomery responds that Judge Foley was aware of Heyman’s arguments in this
regard and that he understood what his own order required when he made his
decision. ECF No. 402.
Heyman
objects to the October 17 order granting Montgomery’s second
\
motion for sanctions, again arguing that he did his best to cooperate with
Montgomery in this matter, is acting pro se, has never dealt with HIPAA releases
before, and genuinely thought that he provided Montgomery with a release
sufficient to meet the order’s requirements. Heyman also argues that Montgomery
lacks standing to move for an order requiring Heyman to provide HIPAA
authorization to anyone except Montgomery and her counsel and that the issue was
not ripe. ECF No. 415. Montgomery does not respond to this objection.
Heyman objects to the November 21 order imposing an additional $1,148.00
in attorney’s fees, arguing that Montgomery’s memo included hours spend on work
done outside the scope of the October 17 order, that the memo was deficient in a
number of ways, and that Montgomery’s counsel was artificially inflating hours
and research for and drafting the memo for fees. See ECF No. 373-1.

28a

spent working on the relevant materials. ECF No. 418. Montgomery does not
respond to this objection.
A magistrate judge’s ruling on non-dispositive matters such as those
addressed in Judge Foley’s orders are “not subject to de novo determination.”
Grimes v. City & Cty. of San Francisco, 951 F.2d 236, 241 (9th Cir. 1991) (quoting
Merrit [sic] v. Int’l Bhd. of Boilermakers, 649 F.2d 1013, 1017 (5th Cir. 1981)). I
reconsider a matter only if it “has been shown [that] the magistrate judge’s order is
clearly erroneous or is contrary to law.” LR IB 3_l(a); Fed. R. Civ. Proc. 72(a); 28
U.S.C. § 636(b)(1).
I have reviewed Judge Foley’s rulings, Heyman’s objections, and the
underlying papers. None of Judge Foley’s orders is clearly erroneous or contrary to
law. As the judge handling discovery in this case from its inception, Judge Foley
was in the best position to determine if sanctions were appropriate and how they
should be imposed. He considered Heyman’s arguments and acted well within his
broad discretion in all of the matters to which Heyman objects. I therefore overrule
Heyman’s objections.
III. HEYMAN’S MOTION FOR LEAVE
Heyman moves for leave to file a reply in support of his objection to Judge
Foley’s August 9 order. ECF No. 404. Heyman submitted his reply (ECF No. 403),
and I considered it for the present ruling. I therefore grant Heyman’s motion for
leave.
IV. HEYMAN’S MOTION FOR STATUS CONFERENCE
29a

Heyman also moves for a status conference to clarify his objections to prior
rulings and discuss Judge Boulware’s October 17, 2018 recusal. ECF No. 419.
Heyman acknowledges that it is within my discretion to grant or deny his motion.
There is no need for a conference at this point, so I deny this motion.
V. CONCLUSION
IT IS THEREFORE ORDERED that Magistrate Judge Foley’s rulings (ECF
Nos. 362, 396, 405, and 417) are affirmed in their entirety, and plaintiff Heyman’s
objections (ECF Nos. 376, 399, 415, and 418) are overruled.
IT IS FURTHER ORDERED that plaintiff Heyman shall pay the amounts of
$1,408.00 and $1,148.00 as required by Magistrate Judge Foley’s rulings by April 1,
2019.
IT IS FURTHER ORDERED that plaintiff Heyman’s motion for leave to file a
reply (ECF No. 404) is granted.
IT IS FURTHER ORDERED that plaintiff Heyman’s motion for a status ;
conference (ECF No. 419) is denied.
DATED this 28th day of February, 2019.
s/ ANDREW P. GORDON.
ANDREW P. GORDON
UNITED STATES DISTRICT JUDGE

30a

APPENDIX G
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEVADA
Civ. No. 2:15-cv-01228-RFB-GWF
DARREN HEYMAN, Plaintiff
v.
THE STATE OF NEVADA EX REL. BOARD OF REGENTS OF THE NEVADA
SYSTEM OF HIGHER EDUCATION ON BEHALF OF THE UNIVERSITY OF
NEVADA, LAS VEGAS; et al., Defendants

Filed: March 12, 2019
ORDER

Plaintiff Darren Heyman was a PhD student and graduate assistant at the
University of Nevada Las Vegas’s (“UNLV’) College of Hotel Administration (“Hotel
College”). Heyman alleges that the defendants created and spread a false rumor
that he was going to cheat on his PhD qualifying exam (“Q-exam”), failed to
properly investigate the rumor, erroneously removed him from his PhD program,
and filed a specious bar complaint against him as retaliation for the current
lawsuit. Heyman sues UNLV and the individual defendants, all of whom are or
were affiliates of UNLV, for a variety of claims.
Pending are three motions for summary judgment filed by Heyman (ECF No.
377); defendant Rhonda Montgomery (ECF No. 371); and defendants UNLV, Donald
Snyder, Stowe Shoemaker, Curtis Love, Sarah Tanford, Phillip Burns, Kristin
31a

Malek, Lisa Moll-Cain, Debra Pieruschka, and Elda Sidhu (“collective defendants”)
(ECF No. 374).
Heyman fails to provide sufficient evidence to survive summary judgment on
most of his claims. I therefore deny Heyman’s motion, I grant Montgomery’s motion,
and I grant the collective defendants’ motion as to most of Heyman’s claims.
I. BACKGROUND
In 2013, Heyman was a PhD student and graduate assistant at the UNLV
Hotel College. During that time period, Donald Snyder was the Dean of the Hotel
College and became the President of UNLV. Stowe Shoemaker was a professor at
the Hotel College and replaced Snyder as the Dean. Curtis Love, Rhonda
Montgomery, and Sarah Tanford were professors at the Hotel College, and Love was
also the Director of Graduate Studies for the Hotel College. Phillip Burns was the
Director of Student Conduct at UNLV. Kristin Malek and Lisa Moll-Cain were
doctoral students and graduate assistants at the Hotel College. Debra Pieruschka
was Assistant General Counsel at UNLV and Elda Sidhu was General Counsel.
ECF Nos. 371 at 5-6; 374 at 2; 377 at 4.
Sometime after their first year in the PhD program, all doctoral students at
the Hotel College are required to pass a Q-exam. Heyman alleges that in May 2013,
just prior to his cohort’s Q-exam, Shoemaker, Montgomery, Love, Tanford, Malek,
and Moll-Cain published or republished a false rumor that Heyman was planning to
cheat on the exam. Heyman also alleges that Snyder, Shoemaker, and Burns failed
to adequately investigate the rumor, and that various combinations of the
32a

defendants worked in concert to both have him separated from the PhD program
and file a bar complaint against him as retribution for filing the current lawsuit.
ECF No. 28. The defendants claim that no one accused Heyman of planning to
cheat, that a proper investigation was conducted, that Heyman’s separation from
the program was the result of an administrative error and was corrected in a timely
manner, and that the bar complaint was not part of a conspiracy or retaliation
against Heyman. ECF Nos. 371 and 374.
Heyman filed his original Complaint and First Amended Complaint in state
court. Because the case originally included a federal law claim, the defendants
removed it to this court on June 29, 2015. ECF No. 1. Heyman filed the operative
complaint, his Second Amended Complaint,1 on April 13, 2016. ECF No. 28. This
complaint included 31 causes of action. On October 19, [sid 2017, Judge Richard
Boulware2 dismissed 10 claims and defendant Neal Smatresk.
The remaining causes of action are:
•

l) Defamation against UNLV, Montgomery, Love, Tanford, Burns, Malek,
and Moll-Cain,'

•

Invasion of Privacy — False Light against UNLV, Montgomery, Love,
Tanford, Malek, and Moll-Cain;

•

3) Civil Conspiracy against UNLV, Montgomery, Love, Tanford, Burns,
Malek, and Moll-Cain;

1 While this second amended complaint was incorrectly titled “First Amended Complaint,” the
parties agree that it should be referred to as the “Second Amended Complaint.”
2 Judge Boulware later recused himself from the case. ECF No. 406.

33a

4) Concerts of action against UNLV, Montgomery, Love, Tanford, Burns,
Malek, and Moll-Cain!
5)

Intentional

Infliction

of Emotional

Distress

against

UNLV,

Montgomery, Love, Tanford, Burns, Malek, and Moll-Cairn
6) Breach of Contract against UNLV, Snyder, Montgomery, Love, Tanford,
Burns, Malek, and Moll-Cain;
7) Contractual Breach of the Implied Covenant of Good Faith and Fair
Deahng against UNLV, Snyder, Shoemaker, Montgomery, Love, Tanford,
Burns, Malek, and Moll-Cain;
8) Tortious Breach of the Implied Covenant of Good Faith and Fair
Deahng against UNLV, Snyder, Shoemaker, Montgomery, Love, Tanford,
and Burns;
9) Constructive Fraud against UNLV, Montgomery, Love, Tanford, Burns,
Malek, and Moll-Cain,'
10) Deceit or Misrepresentation against UNLV, Snyder, Burns, and
Shoemaker;
11) Detrimental Reliance against UNLV, Snyder, Shoemaker, and Burns;
12) Fraud in the Inducement against UNLV, Snyder, Shoemaker, and
Burns;
13)

Fraud

and

Intentional

Misrepresentation

against

UNLV,

Montgomery, Love, Tanford, Burns, Malek, and Moll'Cain;
16) Negligence against UNLV, Snyder, Shoemaker, Montgomery, Love,
34a

Tanford, Bums, Malek, and Moll-Cain!
•

17) Negligent Hiring, Training, Supervision, and Retention against
UNLV, Snyder, and Shoemaker!

•

26) Intentional Infliction of Emotional Distress against UNLV!

•

27) Negligence against UNLV!

•

28) Breach of Contract against UNLV!

•

29) Contractual Breach of the Implied Covenant of Good Faith and Fair
Dealing against UNLV!

•

30) Tortious Breach of the Implied Covenant of Good Faith and Fair
Dealing against

•

UNLV; and

•

31)

Civil Conspiracy against UNLV,

Pieruschka,

Sidhu,

Snyder,

Shoemaker, Montgomery, Love, Tanford, and Burns. Id.
Claims 1-13 and 16-17 stem from the alleged rumor and failure to adequately
investigate it, and Claims 26-31 stem from Heyman’s separation from the PhD
program and the bar complaint.
II. EVIDENCE
Much of the evidence Heyman relies on in his motion comes in the form of
affidavits and deposition testimony, in which the deponent testifies about what
someone else said. The defendants argue that nearly all this evidence is
inadmissible hearsay. ECF Nos. 371 at 7-9! 374 at 3-4. Heyman responds that all
of his evidence is admissible, either as non-hearsay or under one of the hearsay
35a

exceptions. ECF No. 389 at 28-29. He makes three arguments: (l) that because all
of the declarants at each level of hearsay could testify at trial, the evidence will be
in admissible form at trial so the statements' can be considered at summary
judgment! (2) that testimony regarding the accusation that he was planning to
cheat is not hearsay because it is not offered to prove the truth of the matter
asserted (i.e., that he intended to cheat) but to prove that the accusations were
made! and (3) that any remaining statements either are “opposing party
statements” that are excluded from hearsay or fall under one of the other hearsay
exceptions. Id.
Evidence considered at summary judgment does not have to be in admissible
form as long as the submitting party can reasonably argue that it would be “able to
proffer [the] evidence in admissible form at trial.” Romero v. Nevada Dep’t of Corr.
673 F. App’x 641, 644 (9th Cir. 2016). If an objection to the evidence is made, the
submitting party bears the burden “to show that the material is admissible as
presented or to explain the admissible form that is anticipated.” Fed. R. Civ. P. 56
advisory committee’s note to 2010 amendment (explaining Fed. R. Civ. P. 56(c)(2));
see also Sweet People Apparel, Inc. v. Phoenix Fibers, Inc., 748 F. App’x 123, 124
(9th Cir. 2019).
Heyman argues that because each individual at each level of hearsay might
potentially testify at trial, all of his evidence should be considered in summary
judgment. This explanation is insufficient, as it requires me to assume that each of
the individuals involved in a hearsay declaration will testify at trial and that each
36a

will testify in a manner that supports the hearsay included in the proffered
statement.
With regard to Heyman’s second and third arguments, I must evaluate
statements nested within statements at each level to determine whether the
declaration at that level is hearsay and, if so, whether an exception applies at that
level. Fed. R. Evid. 805. For example, when a deponent states that “[Moll-Cain]
had said that [Malek] had told her that [Heyman was] planning on cheating on the
exam” (ECF No. 378-4 at 84), at least two levels of hearsay must be evaluated for '
admissibility.3 And the “matter asserted” by the each is different: the matter
asserted Moll- Cain is that Malek made the declaration regarding Heyman, not
that Heyman was planning to cheat. The deposition and each underlying
statement may be inadmissible unless it falls under one of the hearsay exclusions
or exceptions. Federal Rule of Evidence 801(d)(2) excludes from hearsay
statements by party opponents:
A statement that meets the following conditions is not hearsay: . . . The
statement is offered against an opposing party and: (A) was made by the
party in an individual or representative capacity; (B) is one the party
manifested that it adopted or believed to be true! (C) was made by a person
whom the party authorized to make a statement on the subject! (D) was made
by the party’s agent or employee on a matter within the scope of that
relationship and while it existed; or (E) was made by the party’s
coconspirator during and in furtherance of the conspiracy.
Thus, statements made by the defendants and offered by Heyman fall within the
opposing party statement exclusion and I will consider them unless there is a

3 Here I assume either the deponent will testify at trial or the deposition testimony will be admitted
under Rule 804(b)(1).

37a

problem of hearsay within hearsay.
III. ANALYSIS
Summary judgment is appropriate if the pleadings, discovery responses, and
affidavits demonstrate “there is no genuine dispute as to any material fact and the
movant is entitled to judgment as a matter of law.” Fed. R. Civ. P. 56(a). A fact is
material if it “might affect the outcome of the suit under the governing law.”
Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 248 (1986). An issue is genuine if
“the evidence is such that a reasonable jury could return a verdict for the
nonmoving party.” Id.
The party seeking summary judgment bears the initial burden of informing
the court of the basis for its motion and identifying those portions of the record that
demonstrate the absence of a genuine issue of material fact. Celotex Corp., All U.S.
323. The burden then shifts to the non-moving party to set forth specific facts
demonstrating there is a genuine issue of material fact for trial. Fairbank v.
Wunderman Cato Johnson, 212 F.3d 528, 531 (9th Cir. 2000). I view the evidence
and reasonable inference in the light most favorable to the nonmoving party. James
River Ins. Co. v. Hebert Schenk, P.C., 523 F.3d 915, 920 (9th Cir. 2008).
A. Heyman’s Claims of Civil Conspiracy and Concert of Action (Claims 3, 4, and 31)
Heyman alleges that Montgomery, Love, Tanford, Malek, and Moll-Cain
started the rumor that Heyman was going to cheat on the Q-exam, and obstructed
or intentionally failed to conduct a formal investigation into the rumor, all as part of
a plan to have Heyman removed from the PhD program (Claims 3-4). ECF No. 28 at
38a

37-38. Although Burns is not named in the headings for those claims, he is
prominently featured in the supporting text, so it appears that Heyman is also
alleging that Burns participated in these actions. Heyman also alleges that Snyder,
Shoemaker, Montgomery, Love, Tanford, Burns, Pieruschka, and Sidhu acted in
concert to separate Heyman from UNLV and submitted a bar complaint to prevent
him from obtaining a law license (Claim 31). ECF No. 28 at 116-117. Heyman sues
UNLV for these claims under the theory that the defendants were UNLVs agents
working within their scope of employment or as students. The defendants argue
that Heyman has failed to show any tortious action or agreement among the
defendants related to the alleged incidents. ECF Nos. 371 at 20-23; 374 at 12.
“Actionable civil conspiracy arises where two or more persons undertake some
concerted action with the intent to accomplish an unlawful objective for the purpose
of harming another, and damage results.” Guilfoyle v. Olde Monmouth Stock
Transfer Co., 335 P.3d 190, 198 (Nev. 2014). Actionable concerted action arises
where two or more persons “agree to engage in an inherently dangerous activity,
with a known risk of harm, that could lead to the commission of a tort. Mere joint
negligence, or an agreement to act jointly, does not suffice.” GES, Inc. v. Corbitt, 21
P.3d 11, 15 (Nev. 2001). “To prevail in a civil conspiracy action, a plaintiff must
prove an agreement between the tortfeasors, whether explicit or tacit. Similarly,
acting in concert with another tortfeasor requires an agreement.” Dow Chem. Co. v.
Mahlum, 970 P.2d 98, 112 (Nev. 1998), overruled on other grounds by GES, Inc., 21
P.3d 11. If the plaintiff presents no evidence of an agreement among the
39a

defendants, summary judgment in the defendants’ favor is warranted. See
Consolidated Generator-Nevada, Inc. v. Cummins Engine Co., Inc., 971 P.2d 1251,
1256 (Nev. 1998).
Heyman has not provided evidence of an agreement among any the
defendants named in these claims aside from his own testimony that others had
heard of such plans. See, e.g., ECF No. 390-2 at 6-7 (where Heyman recalls nonparty Wen Chang telling him she had heard from Malek that an unnamed group of
faculty “were going to try and have [Heyman] kicked out of the program when [he]
failed the Q-exam for the first time.”). Even if such evidence was potentially
admissible at trial (which appears doubtful), it is not sufficient to create a genuine
issue of material fact regarding the existence of an agreement among some or all of
the defendants in Hey man’s civil conspiracy or concert of action claims. I therefore
grant summary judgment to all defendants on Claims 3-4 and 31.
B. Heyman’s Claims Stemming from the Rumor (Claims 1-2, 5-9, 13, and 16)
Heyman alleges that Montgomery, Love, Tanford, Malek, and Moll-Cain
published or republished a false declaration that Heyman was planning to cheat on
his Q-exam. He claims these publications constitute defamation (Claim l), invasion
of privacy - false light (Claim 2), intentional infliction of emotional distress (Claim
5), breach of contract (Claim 6), breach of the implied covenant of good faith and fair
dealing (Claim 7), tortious breach of the implied covenant of good faith and fair
dealing

(Claim

8),

constructive

fraud

40a

(Claim

9),

fraud

and

intentional

misrepresentation (Claim 13), and negligence (Claim 16).4 Although neither his
complaint nor his motion for summary judgment includes allegations that Burns
created or spread the rumor, Heyman sues Burns for defamation (Claim l). Heyman
also accuses Shoemaker of republishing the false declaration but sues Shoemaker
only for negligence (Claim 16). Heyman sues UNLV for all of these claims under the
theory that the defendants were UNLV’s agents working within their scope of
employment or as students. ECF No. 28 at 33-37, 39-59, 65-67, and 74-82. The
defendants contend they did not make statements regarding Heyman’s alleged plan
to cheat on the Q-exam or they merely said that Heyman said it would be easy to
cheat on the exam, which they argue is not actionable. ECF Nos. 37K 374.
1. Claims Against Shoemaker, Montgomery, Tanford, and Burns for the
Rumor
Heyman does not provide any admissible evidence that Shoemaker,
Montgomery, Tanford, or Burns published or republished a statement that Heyman
was planning to cheat. There is no evidence linking Shoemaker or Burns to the
rumor. The only evidence linking Montgomery and Tanford to the rumor is a
statement in non-party Merrick McKeig’s (a fellow student) affidavit that non-party
Toni Repetti (a UNLV professor) told him that she heard from Montgomery and
Tanford that Heyman was planning to cheat on the Q-exam. This statement is

4 It is not always clear from Heyman’s complaint or the accompanying papers why each of the
defendants is named in a given claim or which incidents are the basis for a given claim. For example,
Claim 13 for fraud and intentional misrepresentation names UNLV, Montgomery, Love, Tanford,
Burns, Malek, and Moll-Cain, but the supporting allegations do not mention Malek or MolLCain and
only briefly reference Montgomery, Love, and Tanford. Similarly, it appears Heyman is suing some

41a

!

hearsay within hearsay and is not admissible under any of the exclusions or
exceptions. And Repetti denies making such a statement. ECF No. 372 at 135. I
therefore grant summary judgment in favor of Montgomery and Tanford on Claims
1-2, 5-9, 13, and 16; Burns on Claim l; to Shoemaker on Claim 16; and UNLY on
those claims that are based on these defendants’ alleged conduct.
2. Breach Claims Against Love, Malek, and Moll-Cain for the Rumor (Claims 6S)
Heyman concedes he has no contract with Love, Malek, or MolhCain. ECF
No. 389at 18. I therefore grant summary judgment in favor of Love, Malek, and
MolhCain on Claims 6-8 and in favor of UNLV on those claims that were based on
these defendants’ alleged conduct.
3. Remaining Claims Against Love for The Rumor (Claims 1-2, 5, 9, 13, and 16)
To support his claims against Love, Heyman submits deposition testimony
from nonparties Repetti,5 Tony Henthorn,6 and Jim Busser,7 all of whom testify that
they were told that Heyman was planning to cheat either directly by Love or
through someone who said they heard the accusation from Love.
Repetti and Busser’s testimony that Love made the statement is admissible
under Rule 801(b)(2) because all three appear to be agents of the opposing party

of the defendants named in Claim 6 for breach of contract due to spreading the rumor, while he is
suing the rest for breach of contract due to their failure to adequately investigate the rumor.
5 “[Love] says to me something along the effects of, ‘I have been told that [Heyman] is going to try to
cheat on the Q exam, we need another proctor in the room.’” ECF No. 378 at 84.
6 “[Love] came and told [Busser] . . . that [Heyman was] going to cheat. And so, [Busser] came and
got me, and said look, ‘We got to do something about this,’ so he and I talked about it.” ECF No. 378
at 206-207.
7 “And [Love] described what he had been informed that [Heyman was] going to cheat and that he
was very concerned about that, and had a number of suggestions for how to proceed. ... He said that

42a

UNLV (and Love is a party opponent) statement rule. However, there is no genuine
dispute that Love’s statements were made in the context of his role as a professor
tasked with ensuring that the exam was properly conducted. Thus, his statements
fall under the intercorporate communication privilege. “A qualified or conditional
privilege exists where a defamatory statement is made in good faith on any subject
matter in which the person communicating has an interest, or in reference to which
he as a right or duty, if it is made to a-person with a corresponding interest or
duty.” Circus Hotels, Inc. v. Witherspoon, 657 P.2d 101, 105 (Nev. 1983) (citations
omitted). Love was responsible for preventing cheating during the Q-exam, and he
made statements to other professors that reflect a genuine effort to fulfill that
responsibility. Heyman provides no evidence that Love abused this privilege or had
an ulterior motive in making these statements. Id. (“Whether a particular
communication is conditionally privileged by being published on a privileged
occasion is a question of law for the court; the burden then shifts to the plaintiff to
prove to the jury’s satisfaction that the defendant abused the privilege by
publishing the communication with malice in fact.”). I therefore grant summary
judgment in Love’s favor on Claims 1-2, 5, 9, 13, and 16 and in UNLV’s favor on to
those claims that were based on Love’s conduct.
4. Remaining Claims Against Malek for the Rumor (Claims 1-2, 5, 9, 13, and 16)

Kristin Malek had provided that information to him and some other faculty.” ECF No. 378 at 324325.

43a

To support his allegations against Malek, Heyman submits an email to
Hey man from Snyder8 and an email between Snyder and Burns,9 which state that
the rumor was likely started by Malek. Heyman also relies on McKeig’s affidavit10
and Repetti11 and Busser’s deposition testimony,12 in which each testifies they were
told that Heyman was planning to cheat either directly by Malek or through
someone who said they heard the accusation from Malek.
The defendants rely on Malek’s interrogatory answers and deposition
testimony, in which she denies stating that Heyman was planning to cheat on the
Q-exam but admits telling Love and Montgomery that Heyman told her “it would be
easy to cheat on the Q-exam.” ECF Nos. 375-1 at 179-180 and 213. The defendants
also point to other witness testimony that supports Malek’s version of events,
including: Love’s interrogatory answers13 and deposition testimony,14 Tanford’s
interrogatory answers15 arid deposition testimony16 and Burns’ deposition.17

8 “The accusation that you had an intention to cheat on the qualifying exam was a student based
rumor and clearly not. the thinking or belief of the College or the University.” ECF No. 378 at 4- 5.
9 “I understand that you have been involved to some extent with the matter involving a student’s'
(presumably Kristin Malek’s) accusation that another student, Darren Heyman, intended to cheat on
his qualifying exams.” ECF No. 390-11 at 2.
10 “[Repetti] also told me that [Montgomery] and/or [Tanford] told her that they had been told that
[Heyman] was planning to cheat on his qualifying exam by Kristen Malek.” ECF No. 378 at 178.
11 “[Moll-Cain] had said that [Malek] had told her that [Heyman was] planning on cheating on the
exam.” Id. at 95.
12 “Q: Okay. In your opinion, who started the accusation? A: Kristin Malek. Q: You seem very certain
of that. Why are you so comfortable saying that? A: Curtis Love directly told me that. I believe later
even [Malek] acknowledged that that she had this conversation with you and that she did what she
thought was right to bring it forward.” Id. at 355.
13 “[Love] is not aware of any rumor or accusation that [Heyman] cheated, or planned to cheat, on the
Q-exam. Rather, . . . Malek informed [Love] that [Heyman] had told her it would he easy to cheat. . .
.’’ECF No. 375-2 at 15-16.
14 “What [Malek] told me was that [Heyman] had said that it would be very easy to cheat on the Q
exam by using a thumb drive.” Id. at 128. “Q: Did you hear that [Heyman] had been accused of
planning to cheat on his Q exam? . . . [Love]: No. What I heard from [Malek] was that [Heyman] said

44a

Viewing the evidence in the light most favorable to Heyman on the
defendants’ motion for summary judgment, there are issues of fact regarding
whether and with what intention Malek started the rumor that Heyman was
planning to cheat on the Q-exam. There are also issues of fact regarding Malek’s
alleged statements when viewing the evidence in the light most favorable to the
defendants on Heyman’s motion for summary judgment because Malek and others
deny she said Heyman was going to cheat. Given that these alleged statements are
the basis for Heyman’s claims against Malek for defamation, invasion of privacy false light, intentional infliction of emotional distress, negligence, constructive
fraud, and intentional misrepresentation, I deny both parties’ motions for summary
judgment on Claims 1-2, 5, 9, 13, and 16 as to Malek.
5. Remaining Claims Against Moll-Cain for the Rumor (Claims 1-2, 5, 9, 13, and
16)
To support his claims against Moll-Cain, Heyman submits the email from
Snyder, in which he states that “the accusation that you had an intention to cheat

it would be easy to cheat. . . Didn’t say that he was going to,' it was preemptive. It would be easy.” Id.
at 179-180.
15 “[Tanford] is not aware of any rumor or accusation that [Heyman] cheated, or planned to cheat, on
the Q-exam. Rather, . . . [Tanford] went to Dr. Curtis Love’s office and learned about Kristin Malek’s
conversation with [Heyman] where [Heyman] told her that it would be easy to cheat on the Q-exam
without detection. [Tanford] does not recall if she was in the office when Kristin Malek shared the
information or whether she arrived afterwards while Dr. Love communicated the information . . . .”
ECF No. 375-3 at 49-50.
16 “Q: How would you define what Ms. Malek said? [Tanford]: It was a statement that she said you
had made regarding that it would be easy to cheat on the exam . . . .” ECF No. 375-2 at 250.
17 “[Ljooking at the information, there was never an accusation against [Heyman] of planning to
cheat or to cheat.” ECF No. 375-3 at 80-81.

45a

on the qualifying exam was a student based rumor,”18 and Repetti’s deposition
testimony.19
None of this evidence sufficiently establishes that Moll-Cain published or re­
published the rumor that Heyman was going to cheat. Snyder’s email does not
identify Moll-Cain as the source of the rumor but simply posits that it was a
“student” who started it. Separate emails between Snyder and Burns suggest that
the student that Snyder had in mind was Malek.20 And while Heyman relies on
Repetti’s testimony as evidence that Moll-Cain helped spread the rumor, Repetti’s
statement actually referred to a conversation with Moll-Cain that took place years
after the alleged incident for which Heyman is suing. Statements occurring this
long after the initial alleged incidents were not covered in Heyman’s second
amended complaint, so the defendants were not given fair notice for claims arising
from them. ECF No. 378 at 94-95. I therefore grant summary judgment in favor of
Moll-Cain on Claims 1-2, 5, 9, 13, and 16 and in favor of UNLV on those claims that
are based on Moll-Cain’s conduct.
6. Remaining Claims Against UNLVfor the Rumor
Heyman sues UNLV for Claims 1-2, 5-9, 13, and 16 under the theory that the
defendants were UNLVs agents working within the scope of their employment or as
students. Of the defendants Heyman names in those claims, only Malek remains.

is ECF No. 378 at 4-5.
19 “[Moll-Cain] had said that [Malek] had told her that [Heyman was] planning on cheating on the
exam.” ECF No. 378 at 95.

46a

Neither party sufficiently addresses the issue of respondeat superior in regard to
UNLV and Malek. Thus, there are remaining issues of fact regarding whether
Malek’s alleged statements were made as an agent or employee of UNLV. I
therefore deny both parties’ motions for summary judgment on Claims 12, 5, 9, 13, and 16 asserted against UNLV that arise from Malek’s conduct'.
C.

Heymaris Claims Stemming from The Investigation

Heyman alleges that Snyder, Shoemaker, and Burns failed to adequately
investigate the source and veracity of the rumor that Heyman was planning to
cheat on the Q-exam and subsequently failed to discipline the individuals who
published or republished those allegations. Additionally, he alleges that Snyder
knew that Shoemaker and Burns were not impartial investigators but allowed them
to proceed in the investigation regardless, and that Burns misrepresented his
relationship with Montgomery. Heyman claims that these failures and the
subsequent promises made to him in regard to the investigation constitute breach of
contract (Claim 6), breach of the implied covenant of good faith and fair dealing
(Claim 7), tortious breach of the implied covenant of good faith and fair dealing
(Claim 8), .constructive fraud (Claim 9), deceit or misrepresentation (Claim 10),
detrimental reliance (Claim 11), fraud in the inducement (Claim 12), intentional
misrepresentation (Claim 13), and negligence (Claim 16).21 Heyman sues UNLV for
all these claims under the theory that the defendants were UNLVs agents working

20 “I understand that you have been involved to some extent with the matter involving a student’s
(presumably Kristin Malek’s) accusation that another student, Darren Heyman, intended to cheat on
his qualifying exams.” ECF No. 390-11 at 2.

47a

within the scope of their employment or as students. ECF No. 28 at 41-82.
In support of his claims, Heyman submits (l) an email from Snyder stating
his office will investigate the rumor!22 (2) deposition testimony of Wen Chang (a
fellow student), who is the only non-defendant Burns claims to have interviewed
and who does not recall being asked any questions relating to Heyman or the
accusations made against him!23 (3) Burns’ deposition testimony, in which he
admits that there are no notes or a final report regarding the investigation24 and
that he did not begin interviewing the relevant persons until nearly three months
after Heyman provided him with an account of the alleged incident, and (4)
evidence that Burns had a working relationship with Montgomery, despite allegedly .
telling Heyman that they were merely familiar with each other.25
The defendants claim that they did not misrepresent or deceive Heyman in

21 Shoemaker is not included in Claim 6 for breach of contract and only included in Claim 16 for
negligence related to the alleged republication of the rumor.
22 “My office will take appropriate action to address this matter under applicable UNLV policies and
procedures, which includes an investigation into the origins of the rumor, a determination of
whether a violation of UNLVs policies and procedures occurred, and if so, appropriate disciplinary
proceedings. These disciplinary proceedings, however, are a confidential student matter, the results
of which cannot be shared with you.” ECF No. 378 at 5.
23 “Q. ... So did Phillip Burns ever bring you into a formal situation to question you about Darren?
[Chang]: I don’t think so. I don’t -1 don’t recall such thing. Q: Did Phillip Burns ever call you to his
office to ask you about Kristin Malek? [Chang]: I don’t remember such thing either.” ECF No. 390-16
at 83-84.
24 “Q: pid you review your notes of the investigation, regarding this case? [Burns]: There are no notes
of the investigation of the case to review those notes were destroyed years ago. Q: Do you remember
when? [Burns]: It would have been pretty much immediately after you left my office the last time we
met in September of 2013. Q: And is that standard practice? [Burns]: It is for cases that are
dismissed, yes. Q: Did you read your final report of the investigation regarding this case in
preparation? [Burns]: There was no final report made.” ECF No. 378 at 647.
25 Heyman alleges that Burns said that he and Montgomery were not close. He submits
Burns’ deposition testimony, in which he admited [sic] that he has presented in her class on
behalf of the office of student conduct (ECF No. 390-3 at 79-80), and Montgomery’s
interrogatory answers, in which she states that she has lunch with Burns once a year (ECF
No. 390-22 at 13-14).

48a

any way and that they conducted an adequate investigation into the rumor but
found no wrongdoing. They rely on Burns’ deposition testimony, in which he details
his recollections of the investigation (ECF No 375-2 at 570-595), the individuals he
allegedly interviewed (ECF No. 390-3 at 55), and how it is normal protocol for him
to destroy notes from investigations that have been dismissed and to not write a
final report if the investigation does not proceed past the initial stages (ECF
No. Id. at 20).
1. Fraud and Deceit Claims Arising from the Investigation (9-10, 12-13)
Claims 9 and 13 against Burns and UNLV and Claims 10 and 12 against
Snyder, Shoemaker, Burns, and UNLV all require that Heyman show by clear and
convincing evidence that the defendants falsely represented a material fact. See
Long v. Towne, 639 P.2d -528, 530 (Nev. 1982) (holding the plaintiffs’ constructive
fraud

claim

was

properly

dismissed

because

the

defendants

had , not •

“misrepresented or concealed any material fact”)/ Epperson v. Roloff, 719 P.2d 799
802 (Nev. 1986) (same for deceit or misrepresentation); J.A. Jones Const. Co. v.
Lehrer McGovern Bovis, Inc., 290, 89 P.3d 1009, 1018 (Nev. 2004) (same for fraud in
the inducement); Blanchard v. Blanchard, 839 P.2d 1320, 1322 (Nev. 1992) (same
for intentional misrepresentation). “The mere failure to fulfill a promise or perform
in the future . . . will not give rise to a fraud claim absent evidence that the
promisor had no intention to perform at the time the promise was made.” Bulbman,
Inc. v. Nevada Bell, 825 P.2d 588, 592 (Nev. 1992).

49a

Heyman offers no evidence to dispute that an investigation was performed or
supervised by Snyder, Shoemaker, and Burns. Although the investigation may not
have been as thorough or as expeditious as Heyman would have liked, Heyman does
not offer sufficient evidence to show that these defendants made material
misrepresentations to him in connection with the investigation. I therefore grant
summary judgment in favor of Burns on Claims 9 and 13, in favor of Snyder,
Shoemaker, and Burns on Claims 10 and 12, and in favor of UNLV on those claims
that were based on the conduct of these defendants.
2. Contractual Claims Arising from the Investigation (6, 7, 8, and 11)
>

Heyman concedes that he has no contract with Snyder, Shoemaker, or Burns.
ECF No. 389 at 18. I therefore grant summary judgment in their favor on Claims 6,
7, 8, and 11.
In regard to the contract claims against UNLV, Heyman submits that both
the UNLV Code of the Hotel College and the UNLV Codes and Bylaws constitute
contracts and that the actions of UNLVs agents breached those contracts. ECF No.
389 at 18. The defendants argue that Heyman has presented no evidence that
either of the codes constitutes a contract between him and UNLV. They further
argue that even if a contract exists, Heyman provides no evidence of a breach. ECF
No. 394 at 6-8. They posit that I should take a deferential view to UNLVs
disciplinary procedures, consistent with previous decisions in this court. See Lucey
v. Nevada ex rel. Bd. of Regents of Nevada Sys. of Higher Educ., No. 207-cv-00658RLH-RJJ, 2009 WL 971667, at *6 (D. Nev. Apr. 9, 2009), affd, 380 F. App’x 608 (9th
50a

Cir. 2010) (“A court’s review under a breach of contract theory for violations of a
university’s established disciplinary procedures is limited to whether the
procedures used were arbitrary, capricious, or in bad faith.”).
Even if the codes are enforceable contracts, Heyman does not identify any
specific language in them that the defendants’ actions would plausibly have
breached. So, there is no genuine issue of fact concerning the contractual claims
against UNLV, and UNLV is entitled to judgment as a matter of law. I therefore
grant summary judgment in favor of UNLV on Claims 6, 7, 8, and 11 as they relate
to the investigation into the rumor.
3. Negligence Claim Arising from the Investigation (Claim 16)
“To prevail on a negligence theory, the plaintiff generally must show that (l)
the defendant had a duty to exercise due care towards the plaintiff) (2) the
defendant breached the duty! (3) the breach was an actual cause of the plaintiffs
injury) (4) the breach was the proximate cause of the injury) and (5) the plaintiff
suffered damage.” Perez v. Las Vegas Med. Ctr., 805 P.2d 589, 591 (Nev. 1991). The
Supreme Court of Nevada has “indicated [its] hesitance to affirm the granting of
summary judgment in negligence cases, because such claims generally present jury
issues.” Sims v. Gen. Tel. & Elecs., 815 P.2d 151, 154 (Nev. 1991) (overruled on
other grounds) (quotation omitted). “[I]f the respondent can show that one of the
elements is clearly lacking as a matter of law, however, then summary judgment is
proper.” Id.

51a

As with the contractual claims discussed above, Heyman does not establish
that any of the actions or inactions by Snyder, Burns, or UNLV constitutes a breach
of their duty to exercise due care towards Heyman. The evidence shows that an
investigation did occur. And although the investigation may not have been as
thorough or as expeditious as Heyman would have liked, Heyman presents no
evidence sufficient to create a genuine issue of fact as to whether a breach of duty
occurred. I therefore grant summary judgment in favor of Snyder, Burns, and
UNLV on Claim 16 as it relates to the investigation into the rumor.
D.

Heymaris Claims Stemming from His Separation from UNLV (Claims 26-30)
On March 25, 2015, Heyman was granted a leave of absence from his PhD

program starting in Spring 2015 and ending in Fall 2015. ECF No. 390-26 at 2. On
September 8, 2015, Heyman applied to extend his leave through Fall 2017 but was
granted leave only through Fall 2016. Id. at 3. On March 10, 2016, UNLV sent a
letter to Heyman informing him that he was being separated from his PhD program
for “failure to return as scheduled or to secure an extension of a prior leave of
absence.” ECF No. 390-4 at 2. Heyman received this letter on March 17, contacted
UNLV about the separation on March 18, and was reinstated to his program on
March 21. ECF No. 375-4 at 23.
Heyman alleges that UNLV, through its agents working within their scope of
employment, intentionally separated him from his PhD program as retribution for
the present lawsuit or was negligent in allowing the separation to occur. ECF No.
377 at 15-16. He claims that due to the five days between when he learned that he
52a

had been separated and was reinstated, he suffered damages in the form of
emotional stress, which physically manifests through stomach cramps. ECF No.
390'14 at 2-3. He sues UNLV for intentional infliction of emotional distress (Claim
26), negligence (Claim 27), breach of contract (Claim 28), contractual breach of the
implied covenant of good faith and fair dealing (Claim 29), and tortious breach of
the implied covenant of good faith and fair dealing (Claim 30).26
As evidence for these claims, Heyman offers the deposition testimony of Kara Wada,
UNLV Director of Admissions and Records. Ms. Wada testified that Heyman’s
separation should not have happened,27 that mistaken separations such as
Heyman’s occur only about once per year,28 and that it is protocol for the student’s
department to contact the student before a separation occurs to correct any
mistakes or apply for a retroactive leave of absence,29 which Heyman alleges never
occurred. Heyman notes that Love was the Hotel College Graduate Coordinator at the time of the separation. ECF No. 377 at 7-8.
The defendants argue that Heyman’s separation was a mistake due to a
clerical error and that there is no evidence that Heyman was intentionally targeted

26 Heyman also sues a number of defendants for civil conspiracy relating to his separation (Claim
31). I addressed this claim above.
27 “Q: The fact that the separation letter was sent to [Heyman] in March of 2016 was a mistake?
[Wada]: Yes. Q: Okay. It never should have happened? [Wada]: Correct.” ECF No. 390-24 at 66.
28 “Q: From 2007 to 2016, you would say about ten people other than Darren [were mistakenly
separated]? [Wada]: That would be fair to say.” Id. at 53.
29 “Q:. . . So, it is the responsibility of the individual colleges to contact the students being separated,
as far as you know? [Wada]: It is the responsibility of the department to let us know if the student
should not be separated and contact the student about doing a leave of absence, if that’s necessary.”
Id. at 57.
“Q: Again, [Heyman] should have been contacted to be given the opportunity to do a retroactive
[leave of absence]? [Wada]: Right.” Id. at 68.

53a

as retribution for his lawsuit or that there was any coordinated effort to have him
removed from his PhD program. ECF Nos. 374 at 5 and 12; 371 at 32-33.
1. Intentional Infliction of Emotional Distress Arising from the Separation
(Claim 26)
To establish a claim for intentional infliction of emotional distress, the
plaintiff must show “(l) extreme and outrageous conduct with either the intention
of, or reckless disregard for, causing emotional distress, (2) the plaintiffs having
suffered severe or extreme emotional distress and (3) actual or proximate
causation.” Dillard Dep’t Stores, Inc. v. Beckwith, 989 P.2d 882, 886 (Nev. 1999).
“[Elxtreme and outrageous conduct is that which is outside all possible bounds of
decency and is regarded as utterly intolerable in a civilized community.” Maduike v.
Agency Rent-A-Car, 953 P.2d 24, 26 (Nev. 1998) (citations omitted). “Liability for
emotional distress generally does not extend to mere insults, indignities, threats,
annoyances, petty oppressions, or other trivialities.” Burns v. Mayer, 175 F.Supp.
2d 1259, 1268 (D. Nev. 2001) (internal quotation omitted).
No reasonable jury could find that the actions Heyman relies on for this claim
are “outside all possible bounds of decency and . . . utterly intolerable in a civilized
community.” Maduike, 953 P.2d at 26. And he offers insufficient evidence of
intentional or reckless disregard for causing emotional distress by any of the UNLV
employees involved in his separation. He argues that mistaken separations are so
uncommon that a reasonable jury could determine that UNLV intentionally
separated him based on probability alone. I disagree. Heyman has failed to support
54a

his claim of intentional infliction of emotional distress, so I grant summary
judgment in favor of UNLV on Claim 26.
2. Negligence Claim Arising from the Separation (Claim 27)
UNLV appears to move for summary judgment on Heyman’s negligence claim
but only through a brief reference to Claim 27. ECF No. 374 at 12. UNLV provides
no substantive argument or legal or factual basis to support its motion on this claim
other than to assert that the mistake was a clerical error. UNLV has not met its
initial burden in moving for summary judgment, so I deny its motion as to Claim
27.

In his motion, Heyman argues that, as a public university, UNLV and its
faculty have a duty to protect students, and that UNLV breached that duty both by
mistakenly concluding that Heyman had not been approved for leave through Fall
2016 and by failing to notify him of his impending separation. He claims that due to
the five days between when he learned that he had been separated and was
reinstated, he suffered damages in the form of additional emotional stress, which
physically manifests through stomach cramps. ECF No. 377 at 15‘16.
Like UNLV, Heyman does not meet his initial burden in moving for summary
judgement on Claim 27. Heyman nakedly asserts that each legal element of the
claim has been met without providing any support for those assertions. He provides
no authority for the proposition that a university and its employees have a duty to
protect students from separations such as his. And courts in this district have
previously rejected similar claims that a university owes a general duty of care to
55a

its students. See Salus v. Nevada ex rel. Bd. of Regents of Nevada Sys. of Higher
Educ., No. 2:i0-cv-01734-GMN, 2011 WL 4828821, at *5 (D. Nev. Oct. 10, 2011);
Lucey; 2007 WL 4563466, at *6. I therefore deny Heyman’s motion for summary
judgment on Claim 27.
Given that both parties have failed to adequately address the legal basis for
Claim 27, I order Heyman and UNLV to provide supplemental motions for
summary judgment regarding negligence, particularly as it applies to Heyman’s
temporary separation.
3. Breach Claims Arising from the Separation (Claims 28, 29, 30)
Neither UNLV nor Heyman’s summary judgment briefings offers any
relevant arguments about Heyman’s claims for breach of contract (Claim 28) and
breach of the implied covenant of good faith and fair dealing (Claims 29 and 30). See
ECF No. 374 at 5 and 12; ECF No. 387 at 6 and 13; ECF No. 394 at 3 and 8-9; ECF
No. 377 at 7-8; ECF No. 389 at 26-27; ECF No. 395 at 7. Thus, I deny both parties’
motions for summary judgment on Claims 28-30. As with the negligence claim, I
order Heyman and UNLV to provide supplemental motions regarding these claims
arising from Heyman’s separation. In that supplement, Heyman must identify the
document or verbal statement he contends forms the contract he entered into with
UNLV that gives rise to these claims. See ECF No. 28 at U 1058.
E.

Negligent Hiring, Training, Supervision, and Retention (Claim 17)
Heyman claims that Snyder, Shoemaker, and UNLV were negligent in

hiring, training, supervising, and retaining Montgomery, Burns, and Malek (Claim
56a

17). He argues that but for the fact that each of these individuals was employed by
UNLV, the rumor would never have started, the rumor would have been stopped
immediately, or Heyman would have been publicly vindicated. ECF No. 28 at 82-86.
Most of Heyman’s allegations in Claim 17 relate to material that Magistrate
Judge Foley excluded. ECF No. 188 at 10-17. Heyman provides no evidence in
support of the remaining allegations, including the accusations that Montgomery
was abusive and discriminatory to students, that Montgomery misappropriated
University funds to buy alcohol, and that Malek had a reputation for spreading
falsehoods at her previous university. And as I outlined above, Heyman presents no
evidence that the defendants did not investigate the rumor. Heyman has not
sustained his burden of defending against the defendants’ motion on this claim. I
therefore grant summary judgment in favor of Snyder, Shoemaker, and UNLV on
Claim 17.
IV. CONCLUSION
IT IS THEREFORE ORDERED that the plaintiffs motion for summary
judgment (ECF No. 377) is DENIED.
IT IS FURTHER ORDERED that Montgomery’s motion for summary
judgment (ECF No. 37l) is GRANTED.
IT IS FURTHER ORDERED that the collective defendants’ motion for
summary judgement (ECF No. 374) is GRANTED IN PART. Claims 3-4, 6-8, 10-12,
and 17 are dismissed as against all defendants; Claims 1-2, 5, 9, 13, and 16 are
dismissed against Snyder, Shoemaker, Love, Tanford, Burns, and Moll-Cain,' and
57a

Claim 26 is dismissed against UNLV. Heyman’s only remaining claims are Claims
1-2, 5, 9, 13, and 16 against Malek and UNLV and Claims 27-30 against UNLV.
IT IS FURTHER ORDERED that Heyman and UNLV may submit
supplemental motions for summary judgment on Claims 27-30 by March 26, 2019.
Each side may submit a response by April 9, 2019. No replies shall be filed. Each
motion and response is limited to 10 pages.
DATED this 12th day of March, 2018.

Is/ ANDREW P. GORDON
ANDREW P. GORDON
UNITED STATES DISTRICT JUDGE

58a

/

APPENDIX H
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEVADA
Civ. No. 2:i5-cv-01228-RFB-GWF
DARREN HEYMAN, Plaintiff
v.
STATE OF NEVADA, ex rel. on behalf of Board of Regents of the Nevada System of
Higher Education on behalf of University of Nevada, Las Vegas! et al., Defendants

Filed: July 11, 2019
ORDER

Plaintiff Darren Heyman filed this lawsuit against t the University of
Nevada Las Vegas and several individual defendants. This case was originally
randomly assigned to District Judge Boulware and Magistrate Judge Foley, but was
randomly reassigned to me after Judge Boulware recused himself. ECF Nos. L 406.
Magistrate Judge Foley remains assigned to this case.
Heyman moves for (l) my recusal, (2) a change in venue, (3) a stay in the
proceedings until a new judge and venue are assigned, and (4) reconsideration by
the new judge of all previous orders. ECF Nos. 448! 449! 450! 451.
I. RECUSAL
Heyman contends I have ties to the William S. Boyd School of Law at UNLV
59a

(UNLV Law School) that render me unable to be fair and impartial or that my
impartiality might be reasonably questioned. Thus, I should recuse myself in
accordance with 28 U.S.C. §§ 455(a) and 455(b)(1). Heyman alleges that Judge
Boulware and I have volunteered together at the Nevada Bar’s Annual Meeting
(ECF No. 448-1 at 8-9); that I actively volunteer for UNLV Law School {Id. at 1014); that I have hired from and currently employ a graduate of UNLV Law School
{Id. at 15-17); that I have supervised judicial externs who were students at UNLV
Law School {Id. at 18-24); and that I may have been an employee of UNLV Law
School {Id. at 25-26).1 He posits that because these alleged ties were discovered
through internet research, they are only “a fraction of the reality that exists.” Id. at
7. Heyman also argues that the fact that I did not disclose these alleged
relationships, did not address Judge Boulware’s recusal in a status conference (ECF
No 424), and ruled against him in multiple orders (ECF Nos. 424! 425; 427) also
shows bias or produces the appearance of bias.
The defendants respond that Ninth Circuit precedent does not support the
conclusion that my alleged ties to UNLV Law School are sufficient grounds for
recusal. ECF No. 454. They also argue that prior rulings are almost never a proper
basis for recusal.
Recusal in federal court is governed by 28 U.S.C. § 455. Subsection 455(b)
provides a list of circumstances in which a judge is required to recuse himself,
including when “he has a personal bias or prejudice concerning a party . . . .

1 Heyman also makes similar allegations regarding Judge Boulware. See ECF Nos. 448 at 9-10; 448>
60a

Subsection 455(a) requires recusal when “a reasonable person with knowledge of all
the facts would conclude that the judge’s impartiality might reasonably be
questioned.” United States v. Studley, 783 F.2d 934, 939 (9th Cir. 1986). “The
reasonable person is not someone who is hypersensitive or unduly suspicious.”
United States v. Holland, 519 F.3d 909, 913 (9th Cir. 2008) (quotations omitted).
A relationship between a federal judge and a law school does not constitute
grounds for recusal in cases in which the affiliated university is a party,
particularly when the case does not involve the law school itself. See, In re
Complaint of Judicial Misconduct, 816 F.3d 1266, 1267(9th Cir. 2016) (“It is well
established that the law ‘does not require recusal for . . . minimal alumni contacts . .
. [including] when [a] judge was [an] alumnus of defendant-university, served as
unpaid adjunct professor who offered internships for the university’s law students,
gave the university a yearly donation for football tickets,’ or served as a ‘member of
[a] school alumni social organization.’” (quoting U.S. ex rel. Hochman v. Nackman,
145 F.3d 1069, 1076 (9th Cir. 1998)). Prior “judicial rulings alone almost never
constitute a valid basis for a bias or partiality motion,” unless they “display a deepseated favoritism or antagonism that would make fair judgment impossible.” Likety
jsrd v. U.S., 510 U.S. 540, 555 (1994). Even “judicial remarks . . . that are critical or
disapproving of . . . the parties, or their cases, ordinarily do not support a bias or
partiality challenge.” Id.

1 at 1-9.

61a

There is no basis for my recusal in this case. My prior rulings and decisions do not
reflect any deep-seated bias against Heyman or his case. While I have and will
continue to engage with UNLV Law School through service, teaching, and hiring
students,2 this relationship does not create a personal bias or an appearance of bias
such that recusal is appropriate under § 455(b)(1) or § 455(a). Similarly, the non­
disclosure of these relationships does not warrant recusal. I therefore deny
Heyman’s motion for recusal.
II. VENUE, STAY, AND RECONSIDERATION
Heyman moves for a change of venue under 28 U.S.C. §1404. ECF No. 449.
He relies on the same arguments he made for my recusal and additionally asserts
that (l) the same relationship between UNLV and me likely exists for all judges in
the United States District Court for the District of Nevada’s unofficial southern
division (Las Vegas); (2) any Las Vegas judge to whom the case is reassigned will
have discussed the case with either Judge Boulware or me! and (3) any jury selected
from the Las Vegas area will be biased in favor of the defendants. He suggests that
Nevada’s unofficial northern division (Reno) would be more appropriate, despite the
added inconvenience for both parties. The defendants respond that a change of
venue is unnecessary and burdensome.
Heyman’s concerns regarding bias and impropriety are misguided. Merely
having a relationship with UNLV Law School is not a basis for changing the venue

21 am not and have never been an employee of or been paid by UNLV Law School.

62a

of a case that is now over four years old and has had nearly 500 entries on the
docket. I therefore deny Heyman’s motion to change venue.
Heyman also moves for reconsideration of all previous motions by the judge
who is reassigned to this case and for a stay in the case until the reassignment is
made. ECF Nos. 450! 451. I dismiss as moot Heyman’s motions for reconsideration
and to stay.
III. CONCLUSION
IT IS THEREFORE ORDERED that Heyman’s motions for recusal (ECF No.
448), to change venue (ECF No. 449), to stay the case (ECF No. 450), and for
reconsideration (ECF No. 451) are DENIED.
DATED this 11th day of July, 2019.

/s/ ANDREW P. GORDON
ANDREW P. GORDON
UNITED STATES DISTRICT JUDGE

63a

APPENDIX I
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEVADA
Civ. No. 2:15-cv-01228-RFB-GWF
DARREN HEYMAN, Plaintiff
v.
STATE OF NEVADA, ex rel. on behalf of Board of Regents of the Nevada System of
Higher Education on behalf of University of Nevada, Las Vegas; et al., Defendants .

Filed: January 27, 2020
ORDER

Plaintiff Darren Heyman sues the University of Nevada, Las Vegas and
several affiliated individuals for spreading a false rumor about him, failing to
investigate the rumor, mistakenly separating him from his PhD program, and filing
a bar complaint against him in retaliation for the current lawsuit. In a prior order, I
granted defendant Rhoda Montgomery’s motion for summary judgment, granted in
part the motion for summary judgment filed by the University and some individual
defendants (collectively, UNLV), and ordered supplemental motions for summary
judgment on Heyman’s claims relating to his separation from the University. ECF
No. 427. Heyman and UNLV each filed supplemental summary judgment motions
on these claims. ECF Nos. 436, 438. Montgomery moves for an award of attorney’s
64a

fees, and Heyman moves for re-taxation of Montgomery’s costs assessed by the
clerk’s office. ECF Nos. 435, 458. Heyman also moves for re-consideration of all
prior orders issued by Judge Boulware before he recused himself from this case.
ECF No. 466.
The parties are familiar with the facts so I do not repeat them here except
where necessary.1 I grant UNLV’s supplemental motion and deny Heyman’s
supplemental motion because UNLV owes no duty of care to Heyman and Heyman
has not identified contract terms that he alleges UNLV breached. I deny
Montgomery’s motion for attorney’s fees because I do not find that Heyman acted in
bad faith in pursuing his claims. I deny Heyman’s motion for re-taxation of costs
because he fails to offer an appropriate reason to deny costs. And I deny Heyman’s
motion for reconsideration of Judge Boulware’s prior orders because Heyman fails
to analyze the appropriate standard and fails to offer a valid reason for
reconsideration.
I. Supplemental Motions for Summary Judgment [ECF Nos. 436, 438]
In my prior order, I denied UNLV and Heyman’s motions for summary
judgment on Claims 27-30, which assert negligence, breach of contract, breach of
the implied covenant of good faith and fair dealing, and tortious breach of the
implied covenant of good faith and fair dealing. ECF No. 427 at 21-22. I ordered
supplemental motions because both parties failed to develop their arguments for

1 The facts are detailed in my previous orders in this case. ECF Nos. 427, 465.

65a

summary judgment. Id. at 22.2.2 I also ordered Heyman to identify which document
or verbal statement forms the contract giving rise to his claims. Id.
Summary judgment is appropriate if the movant shows “there is no genuine
dispute as to any material fact and the movant is entitled to judgment as a matter
of law.” Fed. R. Civ. P. 56(a), (c). A fact is material if it “might affect the outcome of
the suit under the governing law.” Anderson v. Liberty Lobby, Inc., 477 U.S. 242,
248 (1986). A dispute is genuine if “the evidence is such that a reasonable jury could
return a verdict for the nonmoving party.” Id.
The party seeking summary judgment bears the initial burden of informing
the court of the basis for its motion and identifying those portions of the record that
demonstrate the absence of a genuine issue of material fact. Celotex Corp. v.
Catrett, All U.S. 317, 323 (1986). The burden then shifts to the non-moving party to
set forth specific facts demonstrating there is a genuine issue of material fact for
trial. Fairbank v. Wunderman Cato Johnson, 212 F.3d 528, 531 (9th Cir. 2000);
Sonner v. Schwabe N. Am., Inc., 911 F.3d 989, 992 (9th Cir. 2018) (“To defeat
summary judgment, the nonmoving party must produce evidence of a genuine
dispute of material fact that could satisfy its burden at trial.”). I view the evidence
and reasonable inferences in the light most favorable to the non-moving party.
James River Ins. Co. v. Hebert Schenk, P.C., 523 F.3d 915, 920 (9th Cir. 2008).

2 Under the heading “additional issues,” Heyman requests reconsideration of my denial of his motion
for summary judgment and my allowing the defendants to file a supplemental motion. ECF No. 436
at 9-10.1 deny Heyman’s request because: (l) he fails to comply with the local rules by filing a
separate document for each type of relief requested, L.R. IC 2-2(b); (2) he points to an order issued by
Judge Boulware in this case as a reason for reconsideration, but that order applied the dismissal

66a

A. Negligence Claim
The parties dispute whether UNLV owes a duty of care to Heyman. ECF Nos.
436 at 5, 438 at 5-7, 444 at 5-7. Heyman argues that a duty arises from the
constitution, the student code of conduct, the UNLV graduate catalog, and the
internal processes used to expel a student for enrollment violations. ECF Nos. 438
at 5-7, 444 at 5-7.
“To prevail on a negligence theory, the plaintiff generally must show that (l)
the defendant had a duty to exercise due care towards the plaintiff; (2) the
defendant breached the duty! (3) the breach was an actual cause of the plaintiffs
injury; (4) the breach was the proximate cause of the injury; and (5) the plaintiff
suffered damage.” Perez v. Las Vegas Med. Ctr., 805 P2P 589, 591 (Nev. 1991).
Judges in this district have previously held that UNLV does not owe students a
general duty of care. See Salus v. Nev. ex rel. Bd. of Regents of Nev. Sys. of Higher
Educ., No. 2:10-CV-01734-GMN, 2011 WL 4828821, at *5 (D. Nev. Oct. 10, 2011);
Lucey v. Nev. ex rel. Bd. of Regents of Nev. Sys. of Higher Educ., No. 2:07-cv00658-RLH-RJJ, 2007 WL 4563466, at *6, (D. Nev., Dec. 18, 2007).
Heyman does not attempt to distinguish Salus or Lucey. I have reviewed
those decision and searched in vain for other authority supporting a duty. I agree
that UNLV does not owe its students a general duty of care to protect against
unintentional separations like the one at issue here. I will not infer such a duty
from the internal processes UNLV employs when expelling a student because the

standard; and (3) I allowed both parties the opportunity to file supplemental motions because both

67a

facts here are distinct from an expulsion. And because Heyman brings a tort claim
under Nevada law, not a constitutional claim, I will not infer such a duty from the
Eleventh Circuit’s holding in Barnes v. Zaccari that continued enrollment in a state
school is protected by the Due Process Clause of the Fourteenth Amendment. 669
F.3d 1295, 1305 (llth Cir. 2012). Even assuming that the UNLV Code of Conduct
could create a duty, Heyman points only to a proyision ambiguously recognizing
that students have “rights and responsibilities of membership in the University’s
academic and social community,” which does not create a duty to protect students
against unintentional separations like this one.3 ECF No. 438 at 6. Because UNLV
owes no duty to protect against unintentional separations like this one, I grant
suinmary judgment in favor of UNLV on Claim 27.
B. Contract-related Claims
UNLV argues that Heyman fails to identify an existing contract, that an
agreement to allow Heyman a leave of absence lacks consideration, and that
because Heyman’s breach of contract claim fails, so must his claim for breach of the
implied covenant of good faith and fair dealing. ECF No. 436 at 6-7. Heyman argues
that the UNLV Student Code of Conduct, UNLV Graduate Catalog, and his signed

parties failed to address key issues in the first round of briefing.
3 Heyman also points to a provision in the UNLV Graduate Catalog disclaiming that “it does not
constitute a contractual commitment that the university will offer all the courses or programs
described,” arguing that this specific limitation creates a contractual commitment to all other
aspects of the catalog under the canon of expressio unius est exclusio alterius. ECF No. 444 at 6.
Heyman does not offer any authority for this expansive application of the cannon and does not
identify which other aspects of the catalog create a duty of care. I will not infer a duty from the
catalog either.

68a

leave of absence form comprise contracts between Heyman' and UNLV. ECF Nos.
438 at 7, 444 at 7-9.
Under Nevada law, “the plaintiff in a breach of contract action [must] show
(l) the existence of a valid contract, (2) a breach by the defendant, and (3) damage
as a result of the breach.” Saini v. Int'l Game Tech., 434 F. Supp. 2d 913, 919-20 (D.
Nev. 2006). “Basic contract principles require, for an enforceable contract, an offer
and acceptance, meeting of the minds, and consideration.” May v. Anderson, 119
P.3d 1254, 1257 (Nev. 2005). A claim for breach of the implied covenant of good
faith and fair dealing requires the existence of a valid contract. JPMorgan Chase
Bank, N.A. v. KB Home, 632 F. Supp. 2d 1013, 1023 (D. Nev. 2009).
Assuming without deciding that the Code of Conduct and Graduate Catalog4
form valid contracts, Heyman does not identify any terms governing unintentional
separations like that at issue here, or any terms that he alleges UNLV breached.
And because Heyman has not shown that additional consideration is required in
exchange for a leave of absence, he has not shown that the leave of absence form is
a valid contract. Because Heyman has not shown the existence of a valid contract
governing his separation from UNLV, he cannot make out claims for breach of
contract or breach of the implied covenant. So I grant summary judgment in favor of
UNLV on those claims.
C. Tortious Breach of Implied Covenant of Good Faith and Fair Dealing Claim

4 As discussed above, I do not accept Heyman’s interpretation of the Graduate Catalog as a
contractual commitment to all aspects not mentioned in a specific disclaimer.

69a

A claim for tortious breach of the covenant of good faith and fair dealing
arises only in rare and exceptional cases where there is “a special element of
reliance or fiduciary duty, and is limited to rare and exceptional cases.” Great Am.
Ins. Co. v. Gen. Builders, Inc., 934 P.2d 257, 263 (Nev. 1997) (quotations and
citations omitted). “Tort liability for breach of the good faith covenant is appropriate
where “the party in the superior or entrusted position” has engaged in “grievous.
and perfidious misconduct.” Id. Heyman offers a conclusory argument for the
existence of a special relationship between him and UNLV, but he has not identified
and I have not found any authority supporting the existence of a special
relationship between a university and its students. ECF Nos. 438 at 8, 444 at 10. In
any event, an unintentional separation that was fixed in a matter of weeks does not
amount to grievous and perfidious misconduct. Cf. George v. Morton, No. 2:06'CV1112- PMP-GEF, 2007 WL 680788, at *9 (D. Nev. Mar. 1, 2007) (making
misrepresentations and refusing to compensate plaintiff for services rendered may
be viewed as grievous and perfidious). I grant summary judgment in favor of UNLV
on Heyman’s tortious breach of the implied covenant of good faith and fair dealing
claim.
II. Motion for Attorney’s Fees tECF No. 435]
Montgomery argues that an award of attorney’s fees is appropriate under 28
U.S.C. § 1927 and Nevada Revised Statutes § 18.010(2) because Heyman knew he
had no claims against Montgomery. ECF No. 435. Heyman responds that (l) the
issue is unripe, (2) Montgomery is not entitled to recover fees that she is not
70a

obligated to pay because she was found to be acting with the scope of her
employment, (3) 28 U.S.C. § 1927 and Nevada Revised Statutes § 18.010 do not
apply in this case, and (4) Heyman has conducted the litigation in good faith. ECF
No. 442.
A. 28 U.S.C. § 1927
Under 28 U.S.C. § 1927, “[a]ny attorney or other person admitted to conduct
cases in any court of the United States . . . who so multiplies the proceedings in any
case unreasonably and vexatiously may be required by the court to satisfy
personally the excess costs, expenses, and attorneys’ fees reasonably incurred
because of such conduct.” 28 U.S.C. § 1927. “The purpose of § 1927 may be to deter
attorney misconduct, "or to compensate the victims of an attorney’s malfeasance, or
to both compensate and deter.” Haynes v. City & Cty. of San Francisco, 688 F.3d
984, 987 (9th Cir. 2012). “Section 1927 sanctions may be imposed upon a pro se
plaintiff.” Wages v. I.R.S., 915 F.2d 1230, 1235-36 (9th Cir. 1990).
To be awarded, § 1927 sanctions “must be supported by a finding of subjective
bad faith.” New Alaska Dev. Corp. v. Guetschow, 869 F.2d 1298, 1306 (9th Cir.
1989). “Bad faith is present when an attorney knowingly or recklessly raises a
frivolous argument, or argues a meritorious claim for the purpose of harassing an
opponent.” Estate of Bias v. Winkler, 792 F.2d 858, 860 (9th Cir. 1986) (citations
omitted). Frivolousness by itself does not establish bad faith. T. W. Elec. Serv., Inc.
v. Pac. Elec. Contractors Ass’n, 809 F.2d 626, 638 (9th Cir. 1987) (internal
quotations and citations omitted). Determining whether and what sanctions are
71a

appropriate is within the court’s discretion. See Trulis v. Barton, 107 F.3d 685, 694
(9th Cir. 1995). Nevertheless, “[discretionary choices are not left to a court’s
inclination, but to its judgment; and its judgment is to be guided by sound legal
principles.” Id. (internal quotations omitted).
Judge Boulware allowed some of Heyman’s claims against Montgomery to
proceed to summary judgment, and I ruled that Heyman raised genuine issues of
material fact on claims against other defendants. ECF Nos. 27; 225! 427. Heyman
also points to an affidavit from a third party supporting his defamation and
defamation-related claims against Montgomery. Although the affidavit did not
create a genuine issue of fact, it provides some basis for Heyman’s defamation claim
against Montgomery. ECF No. 427 at 9. I do not find that Heyman pursued the
defamation claim against Montgomery in bad faith. Although the defendants may
be correct that Heyman pursued other claims against Montgomery in bad faith,
they fail to identify what fees are directly attributable to these claims. The purpose
of § 1927 is to deter misconduct and' compensate the victims of malfeasance, so the
fees awarded, if any, should relate directly to the misconduct. I will not parse
Montgomery’s billing statements to determine which fees are attributable to the
misconduct. Consequently, I deny Montgomery’s motion for attorney’s fees under §
1927.5
B. Nevada Revised Statutes § 18.010(2)

5 Montgomery was previously awarded sanctions for other misconduct in this case. ECF Nos. 396,
426.
;
,

72a

Under Nevada Revised Statutes § 18.010(2), a party may recover attorney’s
fees where (a) “the prevailing party has not recovered more than $20,000” or (b) the
court finds that a claim or defense “was brought or maintained without reasonable
ground or to harass the prevailing party.” Nev. Rev. Stat. §§ 18.010(2)(a)-(b). “A
party to an action cannot be considered a prevailing party within the contemplation
of [N.R.S. §] 18.010, where the action has not proceeded to judgment.” N. Nevada
Homes, LLC v. GL Constr., Inc., 422 P.3d 1234, 1237 (Nev. 2018). And Nevada law
does not apply to a request for attorney’s fees in federal court “based upon
misconduct by an attorney or party in the litigation itself, rather than upon a
matter of [state] substantive law . . . .” In re Larry’s Apartment, L.L.C., 249 F.3d
832, 838 (9th Cir. 2001); see also Oliva v. Nat’l City Mortg. Co., 490 Fed. Appx. 904,
906 (9th Cir. 2012) (“Defendants were not entitled to attorney’s fees under Nev.
Rev. Stat. §§ 7.085 and 18.010 because plaintiffs’ alleged misconduct was procedural
in nature and, thus, is governed by federal law.”); Taylor v. Beckett, No. 13-CV02199-APG-VCF, 2017 WL 3367091, at *3 (D. Nev. Aug. 4, 2017) (denying motion
for attorney’s fees under § 18.010(2)(b) for filing or maintaining groundless claims).
Montgomery requests fees under both parts of § 18.010(2). I deny her request
under- subsection (a) because Montgomery is not a prevailing party under the
statute until I enter final judgment. Montgomery’s request under subsection (b) is
premised on Heyman’s filing and maintenance of claims without a reasonable basis.
ECF No. 435 at 10-11. Because this alleged misconduct is procedural in nature, it is

73a

governed by federal law. So, I deny Montgomery’s request under subsection (b) as
well.
III. Motion for Re-taxation of Costs [ECF No. 458]
Heyman moves for re-taxation of $1,271.95 in costs taxed by the clerk’s office.
ECF Nos. 453, 458. Heyman contends that (l) Montgomery’s counsel acted in bad
faith,' (2) Montgomery failed to attach an affidavit as required by the local rules,' (3)
Montgomery was indemnified by the state of Nevada for her fees and costs; (4) he
has limited resources and imposing costs could have a chilling effect; (5)
Montgomery failed to provide evidence that checks for some costs were cashed; and
(6) final judgment has not been entered. Id.
“An award of standard costs in federal district court is normally governed by
Federal Rule of Civil Procedure 54(d), even in diversity cases.” Champion Produce,
Inc. v. Ruby Robinson Co., 342 F.3d 1016, 1022 (9th Cir. 2003). Rule 54(d)(1)
provides that “[u]nless a federal statute, these rules, or a court order provides
otherwise, costs—other than attorneys’ fees—should be allowed to the prevailing
party.” The court may deny costs for any appropriate reason, including “(l) the
substantial public importance1 of the case, (2) the closeness and difficulty of the
issues in the case, (3) the chilling effect on future similar actions, (4) the plaintiffs
limited financial resources, and (5) the economic disparity between the parties.”
Escriba v. Foster Poultry Farms, Inc., 743 F.3d 1236, 1247 (9th Cir. 2014). Local
Rule 54-1 requires that a bill of costs must be filed “no later than 14 days after the
judgment or decree,” but does not specifically require entry of judgment prior to
74a
)

filing a bill of costs. Instead, the Ninth Circuit has held that “each case should be
analyzed individually to determine whether there is a prevailing party” under Rule
54(d)(1). Pedrina v. Chun, 182 F.3d 927 at *1 (9th Cir. 1999) (table decision).
Having reviewed Montgomery’s bill of costs, Heyman’s objections, the clerk’s
memorandum, and Heyman’s motion, I deny Heyman’s motion for re-taxation.
Montgomery is a prevailing party because I have entered summary judgment in her
favor on all of Heyman’s claims. ECF No. 427. Although this may seem to conflict
with my finding that Montgomery is not a prevailing party under Nevada Revised
Statutes § 18.010(2)(a), the federal standard is more flexible than Nevada’s. I do not
find that Montgomery’s request was made in bad faith. The amount of costs is
modest and Heyman has not submitted an affidavit to support his claimed lack of
resources. Montgomery’s bill of costs complies with Local Rule 54-14(c). See 28
U.S.C. § 1746. Heyman has not identified and I have not found any controlling
authority requiring the denial of costs when those costs are indemnified by a third
party.6 There is also no requirement that a party provide evidence that checks have
been cashed. I deny Heyman’s motion for re-taxation of costs.
IV. Motion for Reconsideration [ECF No. 466]
Heyman previously moved for reconsideration of all orders issued by Judge
Boulware prior to his recusal. ECF No. 451. I denied the motion as moot. ECF No.
465 at 4. Heyman moves for reconsideration on grounds that newly-discovered
evidence shows that Judge Boulware was paid as an adjunct professor at UNLV’s

75a

law school during the time this case was assigned to him. ECF No. 466. UNLV
responds that Heyman’s motion for reconsideration is improper and fails to identify
any authority requiring reconsideration of Judge Boulware’s prior orders. ECF No.
468.
A district court “possesses the inherent procedural power to reconsider,
rescind, or modify an interlocutory order for cause seen by it to be sufficient,” so
long as it has jurisdiction. City ofL.A., Harbor Div. v. Santa Monica Baykeeper, 254
F.3d 882, 885 (9th Cir. 2001) (quotation and emphasis omitted),' see also Moses H.
Cone Mem’l Hosp. v. Mercury Constr. Corp., 460 U.S. 1, 12 (1983) (citing Fed. R.
Civ. P. 54(b)). “Reconsideration is appropriate if the district court (l) is presented
with newly discovered evidence, (2) committed clear error or the initial decision was
manifestly unjust, or (3) if there is an intervening change in controlling law.” Sch.
Dist. No. 1J, Multnomah Cnty., Or. v. ACandS, Inc., 5 F.3d 1255, 1263 (9th Cir.
1993).
The disqualification statute “neither prescribes nor prohibits any particular
remedy for a violation,” and “[t]here need not be a draconian remedy for every
violation of [28 U.S.C.] § 455(a).” Liljeberg v. Health Servs. Acquisition Corp., 486
U.S. 847, 862, 864 (1988). In determining whether an order should be vacated, “it is
appropriate to consider the risk of injustice to the particular parties, the risk that
the denial of relief will produce injustice in other cases, and the risk of undermining
the public’s confidence in the judicial process.” Id. (vacating judgment by district

6 Heyman points to a state court decision, but the award of costs in federal courts is governed by the

76a

court under Rule 60(b)(6)); see also United States v. Bulger, 928 F. Supp. 2d 305,
315 (D. Mass. 2013) (Liljeberg factors apply to determine whether to allow prior
orders to stand).
Assuming without deciding that Heyman’s evidence that Judge Boulware
was a paid adjunct professor is newly discovered and would have disqualified Judge
Boulware under 28 U.S.C. § 455, Heyman fails to apply the Liljeberg factors or
otherwise explain why Judge Boulware’s orders should be reconsidered. There is no
risk of injustice here because many of Heyman’s claims survived Judge Boulware’s
rulings and Heyman does not identify any orders that were wrongly decided or the
product of bias. I also do not find that denial of relief will produce injustice in other
cases. The risk to the public’s confidence in the judicial process is insubstantial
because^ (l) Judge Boulware was a paid adjunct professor at UNLV’s law school,
while this case is focused on UNLV’s hospitality school! (2) Judge Boulware was
paid a modest amount for his teaching! and (3) federal judges play an important in
legal education. See Code of Conduct for United States Judges Canon 4(A)(1) (“A
judge may speak, write, lecture, teach, and participate in other activities concerning
the law, the legal system, and the administration of justice [.]”). So I deny Heyman’s
motion for reconsideration.
V. Conclusion
I THEREFORE ORDER that Heyman’s supplemental motion for summary
judgment DECF No. 438] is DENIED and UNLV’s supplemental motion for

Federal Rules of Civil Procedure.

77a

/

summary judgment [ECF No. 436] is GRANTED. Claims 27-30 are dismissed
against all defendants.
I FURTHER ORDER that Montgomery’s motion for attorney’s fees [ECF No.
435] is DENIED.
I FURTHER ORDER that Heyman’s motion for re-taxation of costs [ECF No.
458] is DENIED.
I FURTHER ORDER that Heyman’s motion for re-reconsideration [ECF No.
466] is DENIED.
DATED this 27th day of January, 2020.

/s/ ANDREW P. GORDON
ANDREW P. GORDON
UNITED STATES DISTRICT JUDGE

78a

APPENDIX J
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEVADA
Civ. No. 2:i5-cv-01228-RFB-GWF
DARREN HEYMAN, Plaintiff
v.
STATE OF NEVADA, ex rel. on behalf of Board of Regents of the Nevada System of
Higher Education on behalf of University of Nevada, Las Vegas; et al., Defendants

Filed: February 18, 2020
ORDER

MINUTE ORDER IN CHAMBERS of the Honorable Magistrate Judge Elayna J.
Youchah on 2/18/2020. With good cause appearing, the Honorable Magistrate Judge
Elayna J. Youchah recuses herself in this action. IT IS ORDERED that this action
is referred to the Clerk for random reassignment of this case for all further
proceedings, (no image attached) (Copies have been distributed pursuant to the
NEF - AF)

79a

APPENDIX K
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEVADA
Civ. No. 2-15-cv-01228-RFB-GWF
DARREN HEYMAN, Plaintiff
v.
STATE OF NEVADA, ex rel. on behalf of Board of Regents of the Nevada System of
Higher Education on behalf of University of Nevada, Las Vegas; et al., Defendants

Filed: February 20, 2020
ORDER

Plaintiff Darren Heyman has filed two emergency motions. ECF Nos. 475,
476. He wants me to certify some of my prior orders so he can file an interlocutory
appeal with the 9th Circuit. In the alternative, he wants me to stay this case so he
can seek a writ of mandamus from the 9th Circuit. Mr. Heyman does not offer
convincing arguments or facts to justify granting his requested relief.
I THEREFORE ORDER that Heyman ' s motion to certify orders [ECF No.
475] and his motion to stay these proceedings [ECF No. 476] are DENIED.
DATED this 20th day of February, 2020.

/s/ ANDREW P. GORDON .
ANDREW P. GORDON
UNITED STATES DISTRICT JUDGE
80a

APPENDIX L
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEVADA ,
Civ. No. 2:15-cv-01228-RFB-GWF
DARREN HEYMAN, Plaintiff
v.
STATE OF NEVADA, ex rel. on behalf of Board of Regents of the Nevada System of
Higher Education on behalf of University of Nevada, Las Vegas! et al., Defendants

Filed: June 4, 2020
ORDER

The parties have- been unable to agree on a proposed Joint Pretrial Order.
Plaintiff Darren Heyman has ignored my prior admonition not to engage in ad
' hominem attacks and to narrow the proposed Pretrial Order by excluding irrelevant
and inadmissible facts and evidence. Compare ECF No. 501 with ECF No. 515. It is
obvious that further engagement about the proposed Pretrial Order will create more
frustration for the parties and me and result in more unnecessary motions. No one
benefits from that. Instead, I will set this matter for trial and a settlement
conference. Given the court’s backlog because of the Covid-19 pandemic, I am
unable to schedule this trial in 2020.
I THEREFORE ORDER as follows:
81a

l

1.

All pending motions (ECF Nos. 505, 508, 510) are DENIED.

2.

This case is set for jury trial on the stacked calendar on January
25, 2021 at 9^00 a.m. in Courtroom 6C. Calendar call will be
held on January 19, 2021 at 8^45 a.m. in Courtroom 6C. The
trial will last no more 1 than five days. The parties are to
streamline their presentations accordingly. If needed, I will
allocate the time between the parties.

3.

The parties will be referred to a settlement conference with a
Magistrate Judge. Separate orders about that settlement
conference will follow. The failure to participate in that
settlement conference in good faith will result in sanctions on
the recommendation of the Magistrate Judge.

4.

If the case does not settle, the. parties will thereafter confer
about the documents, witnesses, and depositions to be presented
at trial. The parties shall submit a proposed joint pretrial order
containing only the items listed in Local Rule 16-3(b)(8-12) by
October 22, 2020. Motions in limine, if any, must be filed by
November 6, 2020.

DATED this 4th day of June, 2020.
/s/ ANDREW P. GORDON
ANDREW P. GORDON
UNITED STATES DISTRICT JUDGE

82a

APPENDIX M
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEVADA
Civ. No. 2:15-cv-01228-RFB-GWF
DARREN HEYMAN, Plaintiff
v.
STATE OF NEVADA, ex rel. on behalf of Board of Regents of the Nevada System of
Higher Education on behalf of University of Nevada, Las Vegas! et al., Defendants

Filed: July 24, 2020

ORDER

This matter has been referred to the undersigned for a mandatory settlement
conference (ECF No. 517). A settlement conference is hereby set for Tuesday,
September 22, 2020 at 10:00 a.m. In light of recent health events, the Settlement
Conference will be conducted remotely via Zoom video, with an email containing a
link to the conference being provided to the attending parties the morning of the
conference.
NOTE: SIGNIFICANT CHANGES TO THE COURTS SCHEDULING
ORDER ARE LISTED BELOW.
The following requirements for the SC apply-1. Attendance
83a

• An attorney of record who will be participating in the trial of this case, all
parties appearing pro se, if any, and all individual parties must be present.
• In the case of non-individual parties, counsel must arrange for a
representative with binding authority to settle this matter up to the full
amount of the claim to be present for the duration of the SC.
• If any party is subject to coverage by an insurance carrier, then a
representative of the insurance carrier with authority to settle this matter
up to the full amount of the claim must also be present for the duration of
the SC.
• The Court will impose sanctions to the extent a representative with binding
authority to settle this matter up to the full amount of the claim is not
present.
• A request for an exception to the above attendance requirements must be
filed and served on all parties at least 14 days before the SC.
• An attorney of record, individual "parties, a fully-authorized representative,
and a fully-authorized insurance representative must appear unless the
court enters an order granting a request for exception.

2. Time Limit
* The SC will be limited to three (3) hours.
3. Request to Reschedule
• Any requests to reschedule the SC must be submitted at least ten (10) days
in advance of the scheduled date and provide a detailed reason for the
84a

request. Such requests must include at least five alternative dates on
which all required participants are available to attend the SC. The parties
must meet and confer on such dates prior to the filing of the request. If the
request is not filed as a stipulation, any response must be filed three days
after service of the request.
4. Settlement Conference Statement
• In preparation for the SC, the attorneys for each party, and the parties
appearing pro se, if any, must submit a confidential written evaluation statement
for the court’s in camera review.
• The evaluation statement must comply with Local Rule 16-6(0.
• In addition to the information required by LR 16-6, the following
information must he contained in the SC Statement:
o The first paragraph must contain the names, titles and email
addresses of ALL attendees along with a statement of their limit(s),
if any, to settle.
o The entire SC Statement must not exceed 50 pages — including
exhibits. The more concise the writing and more focused the
exhibits, the better the undersigned will be served in understanding
the case.
o The exhibits should not include any items available on the docket —
citation to the ECF No. will suffice.

85a

o If the exhibits include deposition transcripts, then they should only
be excerpts with highlights on the specific statements you seek to
underscore.
o History of settlement negotiations, if any, prior to the SC.
o The final paragraph must contain the opening offer or demand you
will make at the SC with supporting explanation.
• The written settlement statements must be submitted by email to
Kimberly_LaPointe@nvd.uscourts.gov by noon on Tuesday, September 15,
2020. Do not deliver or mail them to the clerk’s office. Do not serve a copy on
opposing counsel.
• The purpose of the settlement statement is to assist the undersigned in
preparing for and conducting the SC. To facilitate a meaningful session,
your utmost candor in providing the requested information is required.
• The written settlement statements will not be seen by or shared with the
district judge or magistrate judge to whom this case is assigned. The
settlement statements will be seen by no one except the undersigned and
his staff.
• Each statement will be securely maintained in my chambers and will be
destroyed following the closure of the case.
5. Sanctions

86a

• Failure to comply with the requirements set forth in this order will subject
the noncomp liant party to sanctions under Local Rule IA 11-8 or Federal
Rule of Civil Procedure 16(f).
6. Electronic Devices
• RECORDING THE SC PROCEEDINGS IS EXPRESSLY PROHIBITED.
Electronic devices are permitted and may be viewed while the Court is
caucusing with the other parties.
7. Pre-SC Conference Call
• The Court is willing to conduct a joint conference call with counsel for the
parties

prior

to

the

SC

if the

parties

feel

issues

should

be

addressed/discussed prior to convening. The parties should submit a joint
written request to chambers if a conference call is requested.
DATED: July 24, 2020
/s/ DANIEL ALBREGTS
UNITED STATES MAGISTRATE JUDGE

87a

APPENDIX N
LOCAL RULES OF PRACTICE
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEVADA
APRIL 17, 2020

LR 16-6. EARLY NEUTRAL EVALUATION
(a) All employment-discrimination actions filed in this court must undergo early
neutral evaluation as defined by this rule. The purpose of the early neutral
evaluation session is for the evaluating magistrate judge to give the parties a
candid evaluation of the merits of their claims and defenses. For purposes of
this rule, “employment-discrimination action” includes actions filed under the
following statutes: Title VII of the Civil Rights Act of 1964, as amended, 42
U.S.C. § 2000e, et seq.l Title I of the Americans With Disabilities Act, as
amended,

42

U.S.C.

§

et seq.l

12101

prohibition of employment

discrimination under 42 U.S.C. § 1981; Age Discrimination in Employment
Act, 29 U.S.C. § 626, et seq.l Equal Pay Act, 29 U.S.C. § 206; Genetic
Information Non- Discrimination Act of 2008, 42 U.S.C. § 2000ff, et seq.l
Vocational Rehabilitation Act of 1973, 29 U.S.C. § 794; and under 42 U.S.C. §
1983, if the complaint alleges discrimination in employment on the basis of
race, color, gender, national origin, or religion.

j

88a

(b) If an action is not initially assigned to the Early Neutral Evaluation
Program, an action must be assigned to the program upon the filing by any
party of a notice stating that action falls under one or more of the statutes
listed in LR 16'6(a).
(c) A motion for exemption from the Early Neutral Evaluation Program must be
v

filed no later than seven days after entry of an order scheduling the early
neutral evaluation session. A response to the motion for exemption must be
filed within 14 days after service of the original motion. A reply will not be
allowed. The evaluating magistrate judge has final authority to grant or deny
any motion requesting exemption from the program and may exempt any
case from early neutral evaluation on the judge’s own motion. These orders
are not appealable.

(d) Unless good cause is shown, the early neutral evaluation session must be
held by the court not later than 90 days after the first responding party
appears in the case.
(e) Unless excused by the evaluating magistrate judge, the parties with
authority to settle the case and their attorneys must attend the early neutral
session m person.
(£) Parties must submit their written evaluation statements to the chambers of
the evaluating magistrate judge by 4:00 p.m. seven days before the session.
- The written evaluation statement must not be filed with the clerk or served
on the opposing parties.
89a

(l) Evaluation statements must be concise and must:
(A) Identify by name or status the person(s) with decision-making ^
authority who, in addition to the attorney, will attend the early
neutral evaluation session as representative(s) of the party, and
persons connected with a party opponent (including an insurer
representative) whose presence might substantially improve the
, utility of the early neutral evaluation session or the prospects of
settlement;
'

(B) Describe briefly the substance of the suit, addressing the party’s
views on the key liability and damages issues!
(C) Address whether there are legal or factual issues whose early
\

resolution would reduce significantly the scope of the dispute or
contribute to settlement negotiations!
(D) Include copies of documents, pictures, recordings, etc. out of which
the suit arose, or whose availability would materially advance the
purposes of the evaluation session (e.g., medical reports, documents
by which special damages might be determined);
(E) Discuss the strongest and weakest points of your case, both factual
and legal, including a candid evaluation of the merits of your case!
(F) Estimate the costs (including attorney’s fees and costs) of taking this
case through trial!

90a

(G) Describe the history of any settlement discussions and detail the
demands and offers that have been made and the reason settlement
discussions have been unsuccessful; and
(H) Certify that the party has made initial disclosures under Fed. R. -Civ.
P. 26(a)(1) and that the plaintiff has provided a computation of
damages to the defendant under Fed. R. Civ. P. 26(a)(l)(A)(iii).
(2) Each evaluation statement must remain confidential unless a party gives
the court permission to reveal some or all of the information in the statement
during the session. The parties should consider whether it would be
beneficial to exchange non-confidential portions of the evaluation statement.
(g) Each evaluating magistrate judge must:
(l) Permit each party (through an attorney or otherwise), orally and through
documents or other media, to present its claims or defenses and to describe
the principal evidence on which they are based;
(2) Assist the parties to identify areas of agreement and, where feasible, enter
stipulations!
(3) Assess the relative strengths and weaknesses of the parties’ contentions
and evidence, and carefully explain the reasoning that supports them!
(4) When appropriate, assist the parties through private caucusing or
otherwise to explore the possibility of settling the case;
(5) Estimate, where feasible, the likelihood of liability and the range of
damages;
91a

(6) Assist the parties to devise a plan for expediting discovery, both formal
and informal, to enter into meaningful settlement discussions or to position
the case for disposition by other means,'
(7) Assist the parties to realistically assess litigation costs,' and
(8) Determine whether some form of followup to the session would contribute
to the case-development process or promote settlement.
(h) The early neutral evaluation process is subject to the confidentiality
provision of LR 16-5.
\

92a
/

APPENDIX O
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEVADA
Civ. No. 2•' 15-cv-01228-RFB-GWF
DARREN HEYMAN, Plaintiff
v.
THE STATE OF NEVADA EX REL. BOARD OF REGENTS OF THE NEVADA
SYSTEM OF HIGHER EDUCATION ON BEHALF OF THE UNIVERSITY OF
NEVADA, LAS VEGAS; NEAL SMATRESK; DONALD SNYDER; STOWE
SHOEMAKER; RHONDA MONTGOMERY; CURTIS LOVE; SARAH TANFORD;
PHILLIP BURNS; KRISTIN MALEK; LISA MOLL-CAIN; DEBRA PIERUSCHKA;
ELSA SIDHU AND DOES I- X INCLUSIVE, Defendants
Filed: September 3, 2020

STIPULATION AND ORDER

IT IS HEREBY STIPULATED between Plaintiff Darren Heyman and
Defendants State of Nevada ex rel. Board of Regents of the Nevada System of
Higher Education on behalf of the University of Nevada Las Vegas and Kristin
Malek (collectively "Defendants"), by and through their undersigned counsel, as
follows:
1.

The Court noticed September 22, 2020 as the date to hold the

settlement conference. See Order (ECF No. 518). The Order requires, in relevant
part, the attendance "in person" of a "representative with binding authority to settle
this matter up to the full amount of the claim." Id. at 1,11. 24-28.

93a

2.

Defendants’ tort claim manager is unavailable to remotely attend the

settlement conference on September 22.
3.

The parties jointly propose the following alternative dates and times so

that all the parties and their representatives can attend:
a. Monday, October 12, 2020, after 11:00 a.m3
b. Wednesday, October 14, 2020, between 1L00 a.m. and 3;00 p.m.i
c. Monday October 19, 2020, after 1L00 a.m.;
d. Wednesday, October 21, 2020, between 1L00 a.m. and 3:00 p.m.;
and
e. Monday, October 26, 2020, after 1L00 a.m.

4.

The parties further stipulate that the confidential settlement

statements will not be due until seven days before the rescheduled date set by the
Magistrate Judge.
DATED this 1st day of September, 2020.
AARON D. FORD
Attorney General
By: /s/ Darren Hevman
Darren Heyman
6671 Las Vegas Blvd., S., #D-210
Las Vegas, NV 89119
PlaintiffPro Se

By: /si Akke Levin
Akke Levin (Bar. No. 9102)
Senior Deputy Attorney General
Steve Shevorski (Bar No. 8256)
Chief Litigation Counsel
Attorneys for Defendants

IT IS SO ORDERED. The Settlement Conference is hereby continued and reset for
Thursday, October 29, 2020 at 10:00 a.m. via video conference. The confidential
briefs are due by noon on Thursday, October 22, 2020. All other provisions of the
94a

Court's Order (ECF No. 518) remain in effect.
/s/ DANIEL ALBREGTS
UNITED STATES MAGISTRATE JUDGE
DATED: September 3, 202CT

I

I

95a

